la

APPENDIX A

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
No. 19-1913

Present^ Pierre N. Leval, Debra Ann Livingston,
Circuit Judges.*
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40
Foley Square, in the City of New York, on the
14th day of November, two thousand nineteen.
Michael G. Bouchard,
Petitioner - Appellant,
v.
United States of America,
Respondent - Appellee.
Appellant, pro se, moves for a certificate of
appealability. Upon due consideration, it is hereby
ORDERED that the motions are DENIED and the
appeal is DISMISSED because appellant has not

2a

“made a substantial showing of the denial of a
constitutional right.” 28 U.S.C. 2253(c); see also
Miller-El v. Cockrell, 537 U.S. 322, 327 (2003).
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court
IS/

* Judge Wesley has recused himself from
consideration of this motion. Pursuant to Second
Circuit Internal Operating Procedure E(b), the
matter is being considered by the two remaining
members of this panel.

3a

APPENDIX B

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
No. 19-1913

At a stated term of the United States Court of
Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40
Foley Square, in the City of New York, on the
27th day of December, two thousand nineteen.
Michael G. Bouchard,
Petitioner - Appellant,
v.

ORDER

United States of America,
Respondent — Appellee.
Appellant, Michael G. Bouchard, filed a motion
for panel reconsideration, or, in the alternative,
for reconsideration en banc. The panel that
determined the appeal has considered the request
for reconsideration, and the active members of the
Court have considered the request for
reconsideration en banc.

5a

APPENDIX C

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
No. 19-1037

At a stated term of the United States Court of
Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40
Foley Square, in the City of New York, on the 8th
day of July, two thousand nineteen.
Present^ Debra Ann Livingston, Raymond H.
Lohier, Jr., Susan L. Carney, Circuit Judges.

In re Michael G. Bouchard,
Petitioner.
Petitioner, pro se, has filed a petition for a writ of
mandamus and moves to nullify the district
court’s decision denying his 28 U.S.C. § 2255
motion. Upon due consideration, it is hereby
ORDERED that the mandamus petition is
DENIED as moot because the district court has
denied Petitioner’s § 2255 motion. It is further
ORDERED that the motion to nullify is DENIED.

6a

The Clerk of Court is directed to transmit the
motion to nullify, 2d Cir. 19-1037, doc. 21, to the
district court to be filed as a notice of appeal from
the district court’s order denying Petitioner’s §
2255 motion. Fed. R. App. P. 4(d).

FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court
/S/

7a

APPENDIX D
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK
MICHAEL BOUCHARD,
Petitioner,
v.

Case No. 1:12-CR-381

UNITED STATES OF AMERICA,
Respondent.
Appearances- Michael G. Bouchard, Latham, New
York 12110, Petitioner, pro se. For United States
of America^ Grant C. Jaquith, United States
Attorney Tamara B. Thomson, Assistant United
States Attorney, 100 South Clinton Street,
Syracuse, New York 13261, Attorneys for
Respondent
Hon. Norman A. Mordue, Senior U.S. District
Court Judge:
MEMORANDUM-DECISION AND ORDER
I. INTRODUCTION
Now before the Court is Petitioner’s motion to
vacate his conviction and sentence pursuant to 28
U.S.C. § 2255. (Dkt. No. 153). The Government
opposes the motion, (Dkt. No. 16l), and Petitioner

8a

has filed a reply, (Dkt. No. 164). Petitioner has
also filed a related motion for discovery. (Dkt. No.
166). The Government opposes the discovery
motion, (Dkt. No. 174), and Petitioner has filed a
reply, (Dkt. No. 176). Petitioner has also filed a
request for an evidentiary hearing on issues
related to pre-trial discovery. (Dkt. No. 177).
Petitioner’s motions and request for a hearing are
denied, for the reasons that follow.
II. BACKGROUND
On November 30, 2012, following a two-week
jury trial, Petitioner was convicted on four felony
offenses, including: one count of conspiring to
submit false statements to a financial institution
in violation of 18,U.S.C. § 371 (Count l); two
counts of bank fraud in violation of 18 U.S.C. §
1344 (Counts 7 and 19); and one count of false
statements knowingly made to a financial
institution in violation of 18 U.S.C. § 1014 (Count
24). (Dkt. No. 38). Petitioner’s conviction stems
from his role as a closing agent, between 2000 and
2007, for a number of mortgage lenders and the
submission of HUD-1 settlement statements to
lenders, which falsely stated that buyers made
cash down payments and contained false accounts
of how mortgage proceeds were disbursed at
closing. On October 12, 2014, the Court sentenced
Petitioner to 48 months imprisonment on each of
the four counts, to run concurrently, followed with
three-years supervised release, restitution in the
amount of $1,175,565.07, and a forfeiture money
judgment of $11,500. (Dkt. No. 106). The Court
denied Petitioner’s motions for a judgment of

9a
acquittal, (Dkt. No. 35), and a new trial, (Dkt. No.
36). (Dkt. No. 89). Petitioner filed a timely notice
of appeal on November 4, 2014. (Dkt. No. Ill; 2d
Cir. No. 14-4156, Dkt. No. l).
Petitioner was represented by Attorney Gaspar
M. Castillo, Jr. at trial and sentencing. (See Dkt.
Nos. 33, 106). On December 30, 2014, Petitioner
filed a notice of appearance for substitute counsel,
replacing Attorney Castillo with new appellate
counsel, Attorney Nathaniel Z. Murmur. (2d Cir.
No. 14-4156, Dkt. No. 14).
On July 7, 2016, the Second Circuit affirmed
Petitioner’s conviction on Count 1 for conspiracy
to submit false statements to a financial
institution, but reversed Petitioner’s convictions
on Counts 7 (bank fraud), 19 (bank fraud), and 24
(false statements to a financial institution). (Dkt.
No. 122; see also 2d Cir. No. 14-4156, Dkt. No. 81l). The Circuit concluded that one of the mortgage
lenders involved in Petitioner’s scheme, BNC
Mortgage (“BNC”), was not a “financial
institution” under the law because it was not
federally insured. See generally United States v.
Bouchard, 828 F.3d 116 (2d Cir. 2016). So, the
Circuit held that the substantive counts for bank
fraud and false statements involving BNC could
not stand. Id. However, the Circuit found that
there was sufficient evidence at trial to support
Petitioner’s conspiracy conviction for his role in a
real estate transaction involving a mortgage
backed by Fremont Investment & Loan
(“Fremont”), a federally-insured lender. Id. The

10a
matter was remanded for resentencing on Count
1. (Dkt. No. 122, p. 31).
On October 20, 2016, the Court resentenced
Petitioner on Count 1 to a term of 48 months
imprisonment with a term of three‘years
supervised release. (Dkt. No. 146). Following his
term of imprisonment, Petitioner was released on
April 13, 2018. See Federal Bureau of Prisons,
Inmate
Locator
(Apr.
29,
2019),
httpsV/www.bop.gov/inmateloc/. Petitioner now
seeks a writ of habeas corpus pursuant to 28
U.S.C. § 2255 to vacate his conspiracy conviction.
(Dkt. No. 153). Further, Petitioner seeks an order
from this Court compelling the Government to
disclose certain documents and other evidence
that Petitioner believes would aid in his attempt
to overturn his conviction. (Dkt. No. 166). The
Government opposes Petitioner’s motions. (Dkt.
Nos. 161, 174).
III. DISCUSSION
A. Motion to Vacate
1. Legal Standard
Under 28 U.S.C. § 2255, “[a] prisoner in custody
under sentence of a court established by Act of
Congress claiming the right to be released upon
the ground that the sentence was imposed in
violation of the Constitution or laws of the United
States, or that the court was without jurisdiction
to impose such sentence, or that the sentence was
in excess of the maximum authorized by law, or is
otherwise subject to collateral attack, may move
the court which imposed the sentence to vacate,

11a
set aside or correct the sentence.” 28 U.S.C. §
2255(a). “If the court finds that the judgment was
rendered without jurisdiction, or that the sentence
imposed was not authorized by law or otherwise
open to collateral attack, or that there has been
such a denial or infringement of the constitutional
rights of the prisoner as to render the judgment
vulnerable to collateral attack, the court shall
vacate and set the judgment aside and shall
discharge the prisoner or resentence him or grant
a new trial or correct the sentence as may appear
appropriate.” 28 U.S.C. § 2255(b). In general, a
motion for habeas relief must be made within one
year. 28 U.S.C. § 2255(f).
A Section 2255 motion is not a substitute for an
appeal. Sapia v. United States, 433 F.3d 212, 217
(2d Cir. 2005). There is a strong preference to
adjudicate challenges to a conviction through
direct appeals rather than by collateral attack.
United States v. Vilar, 645 F.3d 543, 548 (2d Cir.
2011). Thus, “[a] collateral attack is not a
substitute for direct appeal and petitioners are
therefore generally required to exhaust direct
appeal before bringing a petition [pursuant to
Section] 2255.” Id. (citing United States v. Dukes,
727 F.2d 34, 41 (2d Cir. 1984)).
Because of his pro se status, Petitioner’s
submissions should be “liberally construed in his
favor,” and will be read “to raise the strongest
arguments that they suggest.” United States v.
Jackson, 41 F. Supp. 3d 156, 161 (N.D.N.Y.

12a

2014).1 However, a court “need not assume the
credibility of factual assertions, as it would in civil
cases, when the assertions are contradicted by the
record in the underlying proceeding.” Puglisi v.
United States, 586 F.3d 209, 214 (2d Cir. 2009).
2. Application
Petitioner’s Section 2255 motion to vacate
asserts seven separate grounds for the requested
relief. (Dkt. No. 153). However, for the reasons
that follow, each of Petitioner’s proffered legal
theories are insufficient to vacate his conviction.
Thus, Petitioner’s motion is denied.2
i

The Court notes that, “as a former attorney, Plaintiff may
not be entitled to the same level of solicitude ordinarily
afforded to a pro se litigant.” Tonogbanua v. Am. Inti Grp.,
Inc, 2018 WL 1785487, *1 n.3, 2018 U.S. Dist. LEXIS 63005,
*2 n.3 (E.D.N.Y. Apr. 13, 2018); see also Tracy v.
Freshwater, 623 F.3d 90, 102 (2d Cir. 2010) (“[T]he degree of
solicitude may be lessened where the particular pro se
litigant is experienced in litigation and familiar with the
procedural setting presented.”).
2

Petitioner’s brief, spanning 97 pages, is in clear violation of
the local rules, which limit habeas petitions to 25 pages. See
N.D.N.Y. L.R. 72.4(a) (“No memoranda of law filed in
Habeas Corpus proceedings shall exceed twenty-five (25)
pages in length, unless the party filing the memorandum of
law obtains leave of the judge hearing the motion prior to
filing.”). Petitioner did not request leave to file an oversized
brief Although Petitioner has proceeded pro se, as a former
attorney, Petitioner is reminded of each party’s obligation to
consult and comply with the local rules in the future.

13a

i. Claim Preclusion
There are two general rules regarding claim
preclusion that apply to collateral challenges
based on a prior adjudication. See Mui v. United
States, 614 F.3d 50, 53 (2d Cir. 2010). First, the
“so-called mandate rule bars re-litigation of issues
already decided on direct appeal.” Id. (citing
Burrell v. United States, 467 F.3d 160, 165 (2d
Cir. 2006)). The mandate rule also prevents re­
litigation “not only of matters expressly decided
by the appellate court, but also precludes re­
litigation of issues impliedly resolved by the
appellate court’s mandate.” Id. (citing United
States v. Ben Zvi, 242 F.3d 89, 95 (2d Cir. 2001)).
Second, the “procedural default” rule “prevents
Section 2255 claims that could have been brought
on direct appeal from being raised on collateral
review absent cause and prejudice.” Id. at 54
(citing Marone v. United States, 10 F.3d 65, 67 (2d
Cir. 1993) (“In order to raise a claim that could
have been raised on direct appeal, a § 2255
petitioner must show cause for failing to raise the
claim at the appropriate time and prejudice from
the alleged error.”); Campino v. United States,
968 F.2d 187, 190 (2d Cir. 1992) (“[Fjailure to
raise a claim on direct appeal is itself a default of
normal appellate procedure, which a defendant
can overcome only by showing cause and
prejudice.”)).
Further filings that do not comply with the Court’s local
rules will be rejected.

14a
When a petitioner has procedurally defaulted
on a claim by failing to raise it on direct review,
the claim may only be raised under Section 2255
“if the [petitioner] can first demonstrate either
‘cause’ or actual ‘prejudice,’ or that he is ‘actually
innocent.’” Gupta v. United States, 913 F.3d 81,
84 (2d Cir. 2019) (citations omitted). “[I]n order to
meet the cause-and-prejudice standard, the
prejudice that must be shown is not merely
whether the [alleged error] is undesirable,
erroneous, or even universally condemned, but
rather whether the [error] by itself so infected the
entire trial that the resulting conviction violates
due process.” United States v. Frady, 456 U.S.
152, 169 (quoting Henderson v. Kibbe, 431 U.S.
145, 154 (1977)). “[T]he mere fact that counsel
failed to recognize the factual or legal basis for a
claim, or failed to raise the claim despite
recognizing it, does not constitute cause for a
procedural default.” Gupta, 913 F.3d at 85
(quoting Murray v. Carrier, All U.S. 478, 486
(1986)). Application of these rules to Petitioner’s
claims eliminate five of his seven grounds for
appeal.
a. Mandate Rule (Ground 5)
Petitioner’s argument that the jury’s general
verdict on the conspiracy count was unsound
because it did not indicate the specific basis for
conviction (“Ground 5”) is precluded because it
was raised and resolved on direct appeal. (See
Dkt. No. 153, pp. 37-42). Specifically, Petitioner
points out that the jury’s general verdict on
conspiracy did not indicate whether it was based

/

15a

on the “legallysound Fremont transaction” or the
“legally-unsound CitiMortgage transaction.” {Id,
p. 37). But Petitioner’s own motion papers freely
admit that “[t]his ground was raised at the Second
Circuit Court of Appeals.” {Id., pp. 93-94, 96).
Indeed, the Second Circuit’s decision clearly
addressed this point, finding that:
Without
a
special
verdict
form
demonstrating that the jury convicted on a
theory not supported by sufficient
evidence, [ ] we can easily reconcile the
jury’s verdict to acquit on the substantive
count involving Fremont with its finding
that an overt act involving Fremont
occurred as part of the conspiracy. The
differing verdicts might, for example,
simply reflect the fact that the Fremont
closing was attended by one of Bouchard’s
paralegals rather than Bouchard, and the
jury may reasonably have declined to find
Bouchard guilty of the substantive count
and simultaneously determined that his
co-conspirator (the paralegal) committed
the overt act charged in the conspiracy
count.
Bouchard, 828 F.3d at 128 (citation omitted).
Further still, as the Government notes,
Petitioner’s papers fail to provide any basis for
how the alleged error worked to his prejudice or
would have changed the outcome. For these
reasons, Petitioner’s “Ground 5” does not provide
a valid basis to vacate his conspiracy conviction.
See United States v. Mancuso, 2016 WL 9241961,

16a
at *2, 2016 U.S. Dist. LEXIS 195485, at *5-6
(N.D.N.Y. Aug. 23, 2016) (denying vacatur where
petitioner’s arguments were previously raised on
direct appeal).
b. Procedural Default (Grounds 1, 3, 4 and 6)
Next, several of Petitioner’s other alleged
grounds for vacatur are precluded by his
procedural default. Specifically, these include
Petitioner’s arguments that: (i) the jury’s general
verdict of guilty on Count 1 was legally
insufficient because it did not indicate whether it
convicted on the basis of conspiracy or the
alternative basis of aiding and abetting a
conspiracy (“Ground 1”); (2) that the indictment .
violated the ex post facto clause of the
Constitution (“Ground 3”); (3) that the jury
instructions regarding conspiracy were erroneous
because they omitted to mention essential
elements (“Ground 4”); and (4) that the conscious
avoidance jury instructions were legally erroneous
(“Ground 6”). (See generally Dkt. No. 153).
Petitioner claims that none of these claims were
presented until now because they either: (l)
present a “permissible” constitutional issue; or (2)
present issues that “arose as a direct result” of the
Second Circuit’s July 7, 2016 decision. {Id., pp.
95-96).
Here, each of these arguments present entirely
new theories that could have been raised on direct
appeal. Petitioner’s papers offer no cause or basis
for his failure to bring these claims as part of his
direct appeal, and he does not allege any

17a

ineffective representation by his appellate
counsel. Contrary to Petitioner’s contentions, none
of these claims arose from the Second Circuit’s
decision, as they relate squarely to alleged errors
at the trial level. Moreover, Petitioner does point
to any specific prejudice from these alleged errors
that could have changed the outcome of the case.
So, because Petitioner has not met his burden to
show cause or prejudice, the Court may not vacate
his conviction on any of these grounds. See
Campino, 968 F.2d at 190 (“[Flailure to raise a
claim on direct appeal is itself a default of normal
appellate procedure, which a defendant can
overcome only by showing cause and prejudice.”)!
see also Mancuso, 2016 WL 9241961, at *2, 2016
U.S. Dist. LEXIS 195485, at *5-6 (denying
vacatur where petitioner’s new arguments that
could have been raised on direct appeal).
ii. Prejudicial Spillover (Ground 2)
As another basis for vacatur, Petitioner asserts
that “evidence introduced at trial on the counts
reversed on appeal poisoned the jury’s
deliberations in deciding to convict on Count 1.”
(Dkt. No. 153, p. 18). Petitioner claims that he did
not raise this issue on direct appeal because “this
issue arose as a direct result of the appellate
decision.” (Id, p. 96). Petitioner’s argument seems
to suggest that “prejudicial spillover” resulted
from “retroactive misjoinder,” which “refers to
circumstances in which the joinder of multiple
counts was proper initially,
but later
developments—such as ... an appellate court’s
reversal of less than all convictions—render the

18a
initial joinder improper.” United States v.
Hamilton, 334 F.3d 170, 181 (2d Cir. 2003)
(citation omitted). While this issue could have
been argued as part of Petitioner’s direct appeal,
the Court finds that the Second Circuit’s decision
to vacate all remaining substantive fraud counts
now provides greater weight to Petitioner’s
spillover claim. Yet, even if this issue was not
already implicitly considered by the Second
Circuit in the decision to affirm Petitioner’s
conspiracy conviction, Petitioner’s theory fails on
the merits.
“A defendant bears an extremely heavy burden
when claiming prejudicial spillover.” United
States v. Griffith, 284 F.3d 338, 351 (2d Cir.
2002). “The defendant must show that he or she
suffered prejudice so substantial as to amount to a
miscarriage of justice.” Id. The Second Circuit has
established a three-part test for determining
whether there has been prejudicial spillover from
evidence admitted to support convictions that
were later set aside. Hamilton, 334 F.3d at 182.
The Hamilton test considers^ (l) whether the
evidence introduced in support of the vacated
count “was of such an inflammatory nature that it
would have tended to incite or arouse the jury into
convicting the defendant on the remaining
counts,” (2) whether the dismissed count and the
remaining counts were similar, and (3) whether
the government’s evidence on the remaining
counts was weak or strong. Id. (quoting United
States v. Vebeliunas, 76 F.3d 1283, 1294 (2d Cir.
1996)).

19a

Here, although Petitioner cites the Hamilton
case generally, he fails to provide any nonspeculative, non-conclusory basis to show that
prejudicial spillover may have occurred. (See Dkt.
No. 153, p. 22). Petitioner claims that prejudice
may have resulted from the introduction of
evidence regarding BNC Mortgage, which the
Second Circuit found was not a covered institution
at the time of the charged conduct. See Bouchard,
828 F.3d at 127. However, as the Government
argues, there is no indication that this evidence
was inflammatory, or that it affected the jury’s
findings as to Petitioner’s involvement in the
Fremont transaction. (Dkt. No. 161, pp. 14-16).
As to the conspiracy count, the Second Circuit’s
decision recognized that there was sufficient
evidence to support a finding of Petitioner’s
involvement in the Fremont closing. Bouchard,
828 F.3d at 128. Indeed, the Second Circuit
affirmed Petitioner’s conspiracy conviction on that
very basis. Id. Moreover, the verdict indicates that
the jury was able to properly distinguish between
counts, and separately assess the evidence as to
each one. (See Dkt. No. 38). Partial acquittal of a
defendant strongly indicates that there was no
prejudicial spillover. See Hamilton, 334 F.3d at
183 (collecting cases).
Accordingly, Petitioner has not met his heavy
burden to show prejudicial spillover, and his
argument on that basis (“Ground 2”) must fail.
See United States v. Jones, 482 F.3d 60, 78-79 (2d
Cir. 2006) (finding no prejudicial spillover where
the evidence was discrete as to each count, and

20a
the evidence supporting the convicted counts was
“more than adequate”); United States v. Morales,
185 F.3d 74, 82-83 (2d Cir. 1999) (finding that no
prejudicial spillover occurred from invalidated
counts where the jury acquitted defendant of some
charges, but convicted on others where there was
overwhelming evidence of guilt)! United States v.
Andrews, 166 F. App’x 571, 572-73 (2d Cir. 2006)
(rejecting petitioner’s prejudicial spillover and
retroactive misjoinder claims where the evidence
supporting the surviving charges was admissible
and supportive of the jury’s decision to convict on
the challenged counts).
iii. Ineffective Assistance of Counsel (Ground 7)
Petitioner’s motion alleges 27 separate
“examples” of ineffective assistance by his trial
counsel, Attorney Gaspar Castillo. (Dkt. No. 153,
pp. 48—89). The alleged professional errors cited
by Petitioner include, among other claims- (l)
failure to persuade prosecutors not to prosecute!
(2) failure to object to certain standard conditions
of release! (3) failure to make a discovery motion!
(4) failure to obtain complete copies of the
Government’s files! (5) failure to file a trial
memorandum in response to the Government’s
memorandum; (6) failure to file sufficient jury
instructions! (7) failure to request that the jury
use a special verdict sheet! (8) failure to make a
motion for a bill of particulars! (9) failure to make
a motion to dismiss the Indictment based on the
law! and (10) stipulating to allegedly inadmissible
evidence. {Id).

21a
A defendant seeking to attack his sentence
based on ineffective assistance of counsel must
show: “(l) that counsel’s performance fell below an
‘objective standard of reasonableness,’ and (2) that
‘there is a reasonable probability that, but for
counsel’s unprofessional errors, the result of the
proceeding would have been different.’” Kieser v.
New York, 56 F.3d 16, 18 (2d Cir. 1995) {per
curiam) (quoting Strickland v. Washington, 466
U.S. 668, 688 (1984)). There is a “strong
presumption” that counsel’s assistance was
reasonable, and “every effort [should] be made to
eliminate the distorting effects of hindsight, to
reconstruct the circumstances of counsel’s
challenged conduct, and to evaluate the conduct
from counsel’s perspective at the time.”
Strickland, 466 U.S. at 689. In evaluating such a
claim, a court is obliged to review the record to
determine
the
impact
of the
alleged
ineffectiveness within the context of the entire
trial. See Berghuis v. Thompkins, 560 U.S. 370,
389 (2010) (“In assessing prejudice, courts ‘must
consider the totality of the evidence before the
judge or jury.’”) (quoting Strickland, 466 U.S. at
695)). In other words, the “question is whether
there is a reasonable probability that, absent the
errors, the fact finder would have had a
reasonable doubt respecting guilt.” Strickland,
466 U.S. at 694.
Unlike other Section 2255 claims, a petitioner’s
“failure to raise an ineffective-assistance-ofcounsel claim on direct appeal does not bar the
claim from being brought in a later, appropriate

22a

proceeding under § 2255.” Massaro v. United
States, 538 U.S. 500, 509 (2003). “To warrant a
hearing on an ineffective assistance of counsel
claim, the defendant need establish only that he
has a ‘plausible’ claim of ineffective assistance of
counsel, not that ‘he will necessarily succeed on
the claim.’” Puglisi v. United States, 586 F.3d 209,
213 (quoting Armienti v. United States, 234 F.3d
820, 823 (2d Cir. 2000)).
Here, for substantially the same reasons as the
Government points out in its papers, the Court
finds that Petitioner’s ineffective-assistance
claims are unpersuasive and unsupported by the
record. Petitioner’s laundry list of 27 alleged
examples of ineffective assistance amount to a
mere airing of grievances and hindsight rehash of
his representation. Crucially, Petitioner’s claims
fail to show that: (i) Mr. Castillo’s performance
was below an objectively reasonable standard; and
(2) that, but for the deficiency, the ultimate
outcome of the proceeding would have been
different. See Strickland, 466 U.S. at 687. To the
contrary, the record shows that Petitioner was
initially charged with over 24 felony counts
related to his alleged involvement in fraudulent
real estate transactions. (Dkt. No. l). At the
conclusion of the trial, Petitioner was acquitted of
20 of the 24 original counts. (Dkt. No. 38).
On appeal, Petitioner’s appellate counsel
successfully argued that BNC was not a federally
insured financial institution, resulting in the
reversal of three of the four felony convictions. See
generally Bouchard, 828 F.3d 116. The basis for

23a
Petitioner’s appeal was successfully preserved by
Attorney Castillo at trial. Petitioner now stands
convicted of the conspiracy charge only (Count l).
(Dkt. No. 146). Significantly, on this remaining
charge, the trial record contains considerable
evidence showing that Petitioner conspired to
obtain fraudulent mortgage proceeds from the
transfer of residential property through a
mortgage backed by Fremont, an FDIC-insured
institution. {See, e.g., Dkt. No. 48, pp. 4, 13-31
(testimony of Ms. Valdez, senior training
specialist Fremont); Dkt. No. 50, pp. 96-98
(testimony of Ms. Hinds, one of Petitioner’s former
paralegals); Dkt. No. 51, pp. 191—195 (testimony
of Ms. Edgerton, one of Petitioner’s former
paralegals); Dkt. No. 54, pp. 126, 167 (Petitioner’s
testimony acknowledging that Fremont was an
FDIC-insured institution). As the Government
notes, the trial record shows that “[e]ach of the
lending
institutions,
[including
Fremont],
provided testimony that the misstatements [on
the HUD forms] were material to the decision to
lend. The developers admitted that they had been
guilty of defrauding the banks, and three of them
testified that they discussed the scheme with
Bouchard.” (Dkt. No. 161, p. 22). Moreover, among
Petitioner’s former employees involved in the
scheme, “[o]ne paralegal said she learned how to
commit the fraud from Bouchard and the other
paralegal said she learned it from the first
paralegal.” Id.
Indeed, even if Petitioner had demonstrated
some inadequacy on the part of Attorney Castillo,

24a

his motion to vacate on that basis would still fail
given the overwhelming evidence of his
involvement in the Fremont transaction. See
Bouchard, 828 F.3d at 129 (noting that “we are
satisfied based on our review of the record that
there was ample independent evidence proving
that Bouchard was aware of the fraudulent nature
of the schemes”)! see also United States v.
Simmons, 923 F.2d 934, 956 (2d Cir. 1991)
(denying ineffective assistance of counsel claim
because, due to the “plethora of evidence” against
defendant, there was “little reason to believe that
alternative counsel would have fared any better”);
United States v. O’Neil, 118 F.3d 65, 73 (2d Cir.
1997) (“In the face of the overwhelming evidence
against him, [the defendant] cannot show that
there is a reasonable probability that, but for the
alleged trial errors, the outcome of the trial would
have been different.”); Drayer v. United States, 50
F. Supp. 3d 382, 393-94 (E.D.N.Y. 2014) (rejecting
the petitioner’s ineffective assistance of counsel
claims where, even if some inadequacy was
demonstrated, the “overwhelming evidence” of
petitioner’s guilt was presented at trial).
Therefore, Petitioner’s request for habeas relief on
this ground is denied.
iv. Summary
In sum, after careful review of the record, none
of Petitioner’s seven alleged grounds for vacatur
under Section 2255 provide a valid basis for
reversing his Count 1 conspiracy conviction.
Petitioner’s motion to vacate is therefore denied.

25a

B. Request for a Hearing
Generally, “[a] petition for habeas corpus relief
requires an evidentiary hearing to resolve
disputed issues of fact unless the record shows
that the petitioner is not entitled to relief.”
Hayden v. United States, 814 F.2d 888, 891 (2d
Cir.1987); see also 28 U.S.C. § 2255(b). However,
no such hearing is required where: “(i) the
petition lacks ‘meritorious allegations’ that can be
established by ‘competent evidence!’ (2) the case
files and records conclusively demonstrate that
the petitioner is not entitled to relief! or (3) the
allegations of the petition, even if accepted as
true, would not entitle the petitioner to relief.”
Rabbani v. United States, 156 F. Supp. 3d 396,
406 (S.D.N.Y. 2016) (citation omitted). Here, after
reviewing the record and the parties’ arguments,
the Court finds that Petitioner has failed to
establish any meritorious allegation that could be
established by competent evidence, or entitle him
to the relief he seeks. Accordingly, Petitioner’s
request for an evidentiary hearing on these issues
is denied. See Puglisi v. United States, 586 F.3d
209, 216-18 (2d Cir. 2009) (holding evidentiary
hearing would be fruitless when habeas petitioner
failed to provide his own affidavit and only
provided an affidavit of counsel); Bishop v. United
States, 2015 WL 893560, at *8, 2015 U.S. Dist.
LEXIS 24900, at *19-20 (E.D.N.Y. Mar. 2, 2015)
(denying an evidentiary hearing where petitioner
failed to raise any disputed issues of fact to
require a Section 2255 hearing).

26a

C. Motion for Discovery
On November 15, 2018, Petitioner submitted a
motion for discovery pursuant to Rule 6(a) of the
Rules Governing Section 2255 Proceedings. (Dkt.
No. 166).3 Petitioner seeks an order compelling
the Government to produce: (l) “all Brady, Giglio,
and Jencks material”; (2) “all grand jury
material”; (3) “the Government’s files in this case
and other cases -and- the files of New York State
law enforcement”; (4) “Michael Bouchard’s
original files held by the Government”; (5) “all
cooperation agreements and/or Government
motions for a reduction in sentence.” (Id., p. 6).
Petitioner also asks the Court to “compel the
government to provide the identities and
addresses of all Government personnel that
participated in the pre-trial discovery in this
case,” and “to compel the Government to respond
to [Petitioner’s] ‘interrogatories.’” (Id.). The
Government opposes Petitioner’s discovery
motion. (Dkt. No. 174). On January 23, 2019,
Petitioner filed a letter with the Court claiming
that the Government failed to provide a
discoverable tape recording before trial, and
requesting “that an evidentiary hearing be
3 Petitioner’s Rule 6(a) motion, spanning 54 pages, is
another clear violation of the local rules. See N.D.N.Y. L.R.
12.1(a). As mentioned above, supra note 2, further filings
that do not comply with the Court’s local rules will be
rejected.

27a

scheduled with respect to this disputed issue of
fact . . . (Dkt. No. 177). Petitioner’s requests for
additional discovery and evidentiary hearing are
denied, for the reasons that follow.
1. Legal Standard
Under Rule 6(a), “[a] judge may, for good cause,
authorize a party to conduct discovery under the
Federal Rules of Criminal Procedure or Civil
Procedure, or in accordance with the practices and
principles of law.” A petitioner has shown good
cause “where specific allegations before the court
show reason to believe that the petitioner may, if
the facts are fully developed, be able to
demonstrate that he is . . . entitled to relief.”
Bracy v. Gramley, 520 U.S. 899, 908-09 (1997)
(quoting Harris v. Nelson, 394 U.S. 286, 300
(1969)). “A habeas petitioner, unlike the usual
civil litigant in federal court, is not entitled to
discovery as a matter of ordinary course.” Id. at
904. “Generalized statements about the possible
existence of material do not constitute good
cause.” Cardoso v. United States, 642 F. Supp. 2d
251, 265 (S.D.N.Y. 2009) (citing Green v. Artuz,
990 F. Supp. 267, 271 (S.D.N.Y. 1998)). In other
words, “Rule 6 does not allow ‘fishing expeditions
based on a petitioner’s conclusory allegations.’”
United States v. Bouyea, 953 F. Supp. 2d 363, 367
(N.D.N.Y. 2013) (citing Williams v. Bagley, 380
F.3d 932, 974 (6th Cir. 2004)).
2. Application
Petitioner’s Rule 6(a) motion argues that “[t]he
past and current suppression of discoverable

28a
materials evidencing prosecutorial misconduct
confirms Michael Bouchard’s entitlement to [the
requested] information now by court order.” (Dkt.
No. 166-2, p. 30). The Government argues that
Petitioner has failed to show good cause for
discovery. (Dkt. No. 174, pp. 6-12).
Here, for substantially the same reasons
described
above,
Petitioner’s
speculative
allegations
of
suppressed
evidence
and
prosecutorial misconduct simply cannot meet the
“good cause” requirement set forth in Rule 6(a).
See Mendez v. United States, 379 F. Supp. 2d 589,
599 (S.D.N.Y. 2005) (denying Rule 6(a) discovery
motion where the petitioner failed to meet the
good cause requirement). Moreover, to the extent
that Petitioner’s motion seeks discovery related to
alleged perjury by Government witness Kevin
O’Connell CSteeDkt. No. 166*2, pp. 20-21; Dkt. No.
177), the Court finds that these issues were
sufficiently reviewed and resolved in the Court’s
order denying Petitioner’s Rule 33 motion (see
Dkt. No. 89, pp. 38-49), which was subsequently
affirmed by the Second Circuit. See Bouchard, 828
F.3d at 128-29 (finding that O’Connell’s credibly
was “strongly undercut” on cross-examination
which “rendered the significance of [O’Connell’s]
perjury minimal.”).
Accordingly, Petitioner’s motion for discovery
and request for an evidentiary hearing are denied.
See Bouyea, 953 F. Supp. 2d at 366-67 (denying
Rule 6(a) motion where the petitioner’s factual
allegations contradicted the record, and even if
true, would not entitle him to relief); Cardoso, 642

29a
F. Supp. 2d at 264-66 (denying Rule 6(a) motion
for discovery where the petitioner failed to provide
specific allegations showing reason to believe that
he would be entitled to relief if the facts were fully
developed); DeCarlo v. United States, 2008 WL
141769, at *7, 2008 U.S. Dist. LEXIS 2692, at
*23—24 (E.D.N.Y. Jan. 4, 2008) (denying Rule 6(a)
motion where the additional evidence sought, if
developed, would not have entitled the petitioner
to relief under Section 2255).
IV. CONCLUSION
The Court has thoroughly reviewed Petitioner’s
submissions, and to the extent they raise other,
additional arguments, they wholly lack merit.
Petitioner has not demonstrated any basis for
relief under 28 U.S.C. § 2255. The motion, files,
and records of the case conclusively show that
Petitioner is not entitled to further discovery, and
no hearing is required. Further, because
petitioner has not made “a substantial showing of
the denial of a constitutional right,” the Court
declines to issue a certificate of appealability. See
28 U.S.C. § 2253(c)(2).
Accordingly, for the above-stated reasons, it is
hereby
ORDERED that Petitioner’s 28 U.S.C. §
2255 motion (Dkt. No. 153) is DENIED with
prejudice; and it is further
ORDERED that Petitioner’s related motion
for discovery and interrogatories (Dkt. No. 166) is
DENIED with prejudice; and it is further

30a

ORDERED that Petitioner’s letter motion
requesting an evidentiary hearing (Dkt. No. 177)
is DENIED with prejudice; and it is further
ORDERED
that
a
certificate
of
appealability shall not be issued in this case; and
it is further
ORDERED that the Clerk of the Court is
directed to serve copies of this MemorandumDecision and Order in accordance with the Local
Rules of the Northern District of New York.
IT IS SO ORDERED.
Date^ May 6, 2019
Syracuse, New York
/S/
Norman A. Mordue
Senior U.S. District Court Judge

31a

APPENDIX E
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
No. 14-90008-am
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE
PRECEDENTIAL EFFECT. CITATION TO A SUMMARY
ORDER FILED ON OR AFTER JANUARY 1, 2007, IS
PERMITTED AND IS GOVERNED BY FEDERAL RULE
OF APPELLATE PROCEDURE 32.1 AND THIS COURT'S
LOCAL RULE 32.1.1. WHEN CITING A SUMMARY
ORDER IN A DOCUMENT FILED WITH THIS COURT, A
PARTY MUST CITE EITHER THE FEDERAL APPENDIX
OR AN ELECTRONIC DATABASE (WITH THE
NOTATION "SUMMARY ORDER"). A PARTY CITING TO
A SUMMARY ORDER MUST SERVE A COPY OF IT ON
ANY PARTY NOT REPRESENTED BY COUNSEL.

At a stated term of the United States Court of
Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40
Foley Square, in the City of New York, on the 19th
day of January, two thousand eighteen.
PRESENT: Jose A. Cabranes, Robert D. Sack,
Richard C. Wesley, Circuit Judges.

32a

In Re Gaspar Castillo,
Attorney.

ORDER OF GRIEVANCE PANEL

For the reasons that follow, the record of this
disciplinary proceeding, except as to the portions
described below, will be disclosed to the judge
presiding over, and the parties to, the 28 U.S.C. §
2255 proceeding docketed in the United States
District Court for the Northern District of New
York under Bouchard v. United States, 12-cr-381
(N.D.N.Y.).
I. Overview of Disciplinary Record
By order filed in April 2016, this Court publicly
reprimanded Gaspar Castillo for engaging in
conduct unbecoming a member of the bar, and
barred him from representing clients in this Court
pursuant to the Criminal Justice Act for a twoyear period. Castillo was represented in the
disciplinary proceeding by Robert Roche.
The record for this disciplinary proceeding
consists of a number of filings by Castillo and
Roche and several orders of this panel, including
(a) a May 2014 public order imposing an interim
suspension^ (b) a June 2014 public order
terminating the interim suspension! (c) a June
2014 non-public order imposing a private
reprimand; (d) an April 2016 public order
imposing a public reprimand! and (e) a July 2016
public order imposing a reciprocal suspension,
based on a suspension imposed by a state court.

33a

Until now, the only documents in the record
available to the public have been the above-listed
orders imposing public discipline.
Both Castillo and Roche filed documents in
Castillo's disciplinary proceeding that reference
medical information about themselves. That
information is found in a May 2014 letter from
Roche and a November 2015 affirmation from
Castillo; both documents primarily address the
allegations of misconduct in the disciplinary
proceeding, although Roche's letter also addresses
the timing of Castillo's response to the misconduct
allegations.
II. The Present Request for Disclosure
Elizabeth Bouchard, on behalf of Michael
Bouchard, recently requested that Castillo's
disciplinary record be disclosed to her and Michael
Bouchard for purposes of Mr. Bouchard's § 2255
proceeding, which commenced in October 2017.
See Bouchard v. United States, 12-cr-381
(N.D.N.Y.), doc. 153 (§ 2255 motion, filed Oct. 17,
2017). Mr. Bouchard alleges in his § 2255 motion
that, inter alia, he received ineffective assistance
of counsel from Castillo, and that Castillo's
disciplinary record in this Court is relevant to
those claims. Id. at 48-88. In November 2017, this
Court ordered Castillo and Roche to show cause
why Castillo's disciplinary record should not be
made public or, in the alternative, disclosed to
Elizabeth and Michael Bouchard and/or the judge
presiding over Mr. Bouchard's § 2255 proceeding.

34a

Castillo opposes
responded.4

disclosure;

Roche

has

not

III. Disposition
Upon due consideration, it is hereby ORDERED
that, with the exceptions noted below, the
disciplinary record be provided to the judge and
parties in Michael Bouchard's § 2255 proceeding.
The exceptions are as follows:
(a) Roche's May 2014 letter will be
redacted to delete several sentences on
pages 1 and 2 concerning medical
information relating to Roche (the first,
third, fourth and fifth redactions), and two
sentences and a portion of a sentence on
page 1 concerning medical information
relating to Castillo (the second redaction);
(b) Castillo's November 2015 affirmation
will be redacted to delete a sentence on
page 2 relating to a medical issue; and
(c) The documents concerning Bouchard's
disclosure request will not be disclosed:
the request itself, this Court's November
4 For present purposes, we do not deem Roche's failure to
respond to be a waiver of the disclosure issue, and assume
that he opposes disclosure of the medical-related
information concerning him.

35a

2017 order, and Castillo's opposition to the
request, which concern only the present
disclosure issue.5
Although Bouchard's criminal case was not at
issue in Castillo's disciplinary proceeding, we
conclude that the disciplinary record is arguably
relevant to the ineffective assistance of counsel
claims raised in Bouchard's § 2255 proceeding. We
further conclude that any interest Castillo and
Roche may have in keeping the entire disciplinary
record confidential is outweighed by Bouchard's
interest in disclosure, particularly since: Castillo's
disciplinary proceeding resulted in public
discipline, much of the disciplinary record is
already public, and redaction of specific sensitive
information will protect Castillo's and Roche's
privacy interests.
This Court does not have any rule or case law
governing the disclosure of disciplinary records
after an attorney disciplinary proceeding results
in public discipline. However, the rules of other
courts and disciplinary authorities support
disclosure to varying degrees.
Only a few other circuits have published rules
covering the issue. The relevant Third Circuit rule

5 The Court's deliberative documents, such as memoranda
prepared in-chambers or by counsel to the Grievance Panel
that were not intended for filing, are not part of the
disciplinary record and are not subject to disclosure.

36a

makes public, with certain exceptions, any
disciplinary proceeding resulting in public
discipline. See Third Circuit Rules of Attorney
Disciplinary Enforcement, Rule 15 (July 2015).
The Sixth and Eleventh Circuits treat disciplinary
records as confidential, with certain exceptions,
but permit the chief judges of those circuits to
make records public. See Sixth Circuit Rule
46(c)(2) (Aug. 2012); Eleventh Circuit Rules
Governing Attorney Discipline, Rule 2(E) (Jan.
2002).6
The relevant statutes and rules of New York,
Connecticut, and Vermont, governing disclosure of
state disciplinary records, also would permit the
disclosure of Castillo's disciplinary record.

6 The Sixth Circuit's Rule 46(c)(2) provides that "[a]ll records
pertaining to disciplinary proceedings before the court must
be filed under seal, unless the chief judge orders otherwise."
The Eleventh Circuit's Rule 2(E) provides that "[ejxcept as
provided in Rule 13(C) [permitting public discipline orders
to be transmitted to other disciplinary authorities], unless
and until otherwise ordered by the Chief Judge, all reports,
records of proceedings, and other materials presented by the
Court, the [Court's] Committee [on Lawyer Qualifications
and Conduct], or any person to the Clerk of the Court (the
Clerk) for filing shall be filed and maintained as sealed and
confidential documents and shall be labeled accordingly by
the Court, the Committee, or the person presenting such
matters for filing."

37a

Under New York law, state disciplinary records
are initially confidential, but can be divulged upon
a showing of good cause and, in any event, become
public if "charges are sustained by the justices of
the appellate division." N.Y. Judiciary Law §
90(10). Under Connecticut law, a disciplinary
record is public, with certain exceptions that are
not now relevant, if "probable cause has been
found that the attorney is guilty of misconduct."
Conn. Gen. Stats. § 2-50(c). Under Vermont law,
in relevant part, all Professional Responsibility
proceedings and records "formally submitted to a
hearing panel after the filing of formal charges or
stipulation shall be public unless [an interested
party] obtains ... a protective order for specific
testimony, documents, or records," except that
"the work product of the [Professional
Responsibility] Board, hearing panel, and their
counsel, as well as the deliberations of the hearing
panel, Board, and Court shall remain
confidential." Vt. Supreme Ct. Admin. Order No.
9, Perm. Rules Governing Estab. & Operation of
Profl Resp. Program, Rule 12(B).
Additionally, the American Bar Association's
Model Rules for Lawyer Disciplinary Enforcement
provide that disciplinary proceedings become
public, with certain exceptions, once there is a
"determination that probable cause exists to
believe that misconduct occurred" and formal
charges have been filed and served. ABA, Model
Rules for Lawyer Discipl. Enf., Rules 16(A) and
(C) (Aug. 1989, amended Aug. 2002); id., Rules
16(D)-(E) (exceptions).

38a

For present purposes, we need not determine
whether all disciplinary records, or all disciplinary
proceedings resulting in public discipline, are
presumed to be open to the public. Nor do we
decide that all references to medical information
in a disciplinary record must be redacted when
the record is disclosed. We hold only that, in this
case, Bouchard has shown good cause for the
disclosure of Castillo's record with certain
redactions, and that the redacted portions contain
personally sensitive information that is either
irrelevant to Bouchard's § 2255 claims (e.g.,
Roche's medical information) or, at most,
tangential to those claims (because the sensitive
information relates to why certain defaults
occurred, not whether they occurred).
We reject Castillo's suggestion that disclosure
of his disciplinary record by this Court is barred
absent his execution of a release pursuant to the
privacy provisions of the Health Insurance
Portability and Accountability Act of 1996
("HIPAA"). First, this Court is not one of the
entities covered by that statute. See 42 U.S.C. §
I320d*l(a) (stating that the statute applies to
health plans, health care clearinghouses, and
health care providers); Executive Order No.
13181, Dec. 20, 2000, 65 F.R. 81321 ("HIPAA
applies only to 'covered entities,' such as health
care plans, providers, and clearinghouses. HIPAA
regulations therefore do not apply to other
organizations and individuals that gain access to
protected health information, including Federal
officials who gain access to health records during

39a

health oversight activities."); 45 C.F.R. § 160.103
("Covered entity means: (l) A health plan. (2) A
health care clearinghouse. (3) A health care
provider who transmits any health information in
electronic form in connection with a transaction
covered by this subchapter.").
Second, and in any event, the redactions
required by this order will avoid any unauthorized
or
inappropriate
disclosure
of
medical
information.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court
/S/

40a

APPENDIX F
PUBLISHED AT 828 F.3d 116
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
August Term, 2015
(Argued: January 28, 2016 Decided: July 7, 2016)
No. 14-4156-cr
United States of America,
Appellee,
v.
Michael G. Bouchard,
Defendant- Appellant.
Before: PARKER, LYNCH, and LOHIER,
Circuit Judges.
In this mortgage fraud case, Michael Bouchard,
a former attorney, appeals from a judgment of
conviction entered after a jury trial in the United
States District Court for the Northern District of
New York (Mordue, J.). Bouchard was convicted
of filing a false statement with a federally insured
financial institution, in violation of 18 U.S.C.

41a

§1014! conspiring to do so, in violation of 18
U.S.C. §371; and bank fraud, in violation of 18
U.S.C. §1344. The substantive counts on which
Bouchard was convicted involved statements
made to BNC Mortgage (“BNC”), which itself was
not a federally insured financial institution. The
District Court held that the federally insured
status of BNC’s parent company supported the
substantive counts of conviction. We disagree,
and therefore REVERSE Bouchard’s convictions
on
the
substantive
counts. Because
the
conspiracy
count
involved
fraudulent
misstatements made directly to a federally
insured bank, we AFFIRM Bouchard’s conviction
on the conspiracy count and REMAND for
resentencing.
Nathaniel Z. Marmur, The Law Offices of
Nathaniel Z. Marmur, PLLC, New York, NY, for
Defendant-Appellant. Thomas E. Booth (Steven D.
Clymer, Assistant United States Attorney, for
Richard S. Hartunian, United States Attorney for
the Northern District of New York, Albany, NY;
Leslie R. Caldwell, Assistant Attorney General,
and Sung-Hee Suh, Deputy Assistant Attorney
General, on the brief), Department of Justice,
Washington, DC, for Appellee.
LOHIER, Circuit Judge'
Michael Bouchard appeals from a judgment of
conviction entered after a jury trial in the United
States District Court for the Northern District of
New York (Mordue, J.), finding him guilty of one
count of conspiring to file false statements with a

42a

federally insured financial institution, one count
of filing a false statement with a federally insured
financial institution, and two counts of bank
fraud. All four counts of conviction stemmed from
Bouchard's role as a closing attorney in several
real estate transactions in upstate New York from
approximately 2001 until 2007, when mortgage
fraud schemes were especially rampant. As part of
these transactions, the Government charged,
Bouchard and others fraudulently misrepresented
closing prices and other important details of the
real estate sales.
We focus primarily on Bouchard's challenge to
the three substantive counts of conviction
involving activity directed at BNC Mortgage
(“BNC”). Although BNC was a mortgage lender,
not a federally insured financial institution, its
parent company, Lehman Brothers, was a
federally insured financial institution. In this
case, the substantive counts required the
Government to prove that Bouchard intended to
defraud or obtain the property of a “financial
institution,” 18 U.S.C. § 1344, or to “influencte] in
any way the action” of a bank referenced in 18
U.S.C. § 1014. The principal question on appeal is
whether evidence of fraudulent activity directed
at BNC is enough to support convictions under §
1344 and § 1014 solely by virtue of the fact that
BNC was owned by a federally insured financial
institution. We hold that it is not, and we
accordingly reverse Bouchard's convictions on the
three substantive counts. By contrast, the
conspiracy count of conviction involved fraudulent

43a

misstatements made directly to a federally
insured bank, We therefore affirm Bouchard's
conviction on that count and remand for
resentencing.
BACKGROUND
A. The Fraudulent Schemes
Because the jury found Bouchard guilty of all
the charges against him, we view the evidence in
the light most favorable to the Government. See
United States v. Facen, 812 F.3d 280, 283 (2d Cir.
2016).
Bouchard began practicing law in 1988. In 2001
he opened his own law firm devoted largely to real
estate transactions.
The charges
against
Bouchard resulted from an investigation into two
fraudulent real estate schemes in which he and
his law firm participated from approximately 2001
until 2007. The “Team Title” scheme was run by
Francis “Tom” Disonell and Matthew Kupic and
was named after a company the two men owned.7

7 This scheme involved purchasing distressed properties
from homeowners at low values and then reselling them at
artificially inflated values to prospective buyers for no down
payment, while falsely representing to lenders at closing
that the buyers were providing a down payment. Based on
these misrepresentations, Kupic and Disonell were able to
obtain higher mortgages than they would have otherwise.
They distributed the leftover cash from the higher mortgage

44a

The “PB Enterprises” scheme was named after a
company run by Kevin O'Connell and Michael
Crowley. As part of that scheme, O'Connell and
Crowley either directly resold or brokered the
sales of properties at inflated prices and
fraudulently obtained mortgages for the higher
selling prices. At the real estate closings,
O'Connell and Crowley used so-called “double
HUDs”—in effect, two “HUD-1” forms,8 each of
which purported to summarize the disbursements
made from the funds provided by the lender for
the deal. One HUD-1 form reflected the actual,
lower selling price, but was submitted only to the
seller; the other HUD-1 falsely contained the
artificially high purchase price and was submitted
on the same day to the lender for the loan
payment. The latter HUD-1 made it appear that
most of the proceeds of the mortgage would be
used to compensate the seller. In reality O'Connell
and Crowley diverted the mortgage proceeds to
themselves and to the buyer. Disonell, Kupic,
O'Connell, and Crowley eventually testified at
proceeds to other entities and to themselves as “consulting
fees.”

A HUD‘1 form is a Housing and Urban Development
settlement form used in closing a property sale that details
the costs and fees associated with a mortgage loan. See
United States v. Kerlev. 784 F.3d 327, 333 n. 2 (6th Cir.
2015).

45a

Bouchard's trial as cooperating witnesses for the
Government.
Bouchard and two paralegals he hired, Laurie
Hinds and Malissa Edgerton, were closely
involved in both the Team Title and the PB
Enterprises real estate schemes. The focus of this
appeal, however, is on the PB Enterprises scheme
that formed the basis for the counts of conviction.
In that scheme, Bouchard's law firm served as the
closing attorney or “closing agent” purporting to
represent the lenders for several transactions. The
law firm was therefore responsible for disbursing
mortgage funds, ensuring that the closing
instructions from the lender were followed before
disbursing any funds, and ensuring the accuracy
of representations to the lender on the HUD-1
regarding the transaction (such as the sale price
and how much money the buyer put down).
Typically, Bouchard or his paralegals signed and
submitted to the lender a HUD-1 certifying that
the form was “a true and accurate statement of all
receipts and disbursements made on [their]
account or by [them] in this transaction.” But in
fact each of these certifications was false: the
HUD-Is either contained incorrect sales prices or
falsely represented that the buyers had made a
down payment.
Bouchard personally attended the closings and
signed fake HUD-1 forms in connection with at
least two real estate transactions for which he
was convicted. The first of these transactions took
place in March 2005, when PB Enterprises
arranged for the sale of a property in Troy, New

46a
York to a purported buyer, Brian Haskins. In
connection with the sale, Bouchard signed two
obviously different HUD-1 forms, one listing the
sale price as $35,000 and the other falsely listing
an $85,000 sale price. The false HUD-1 form also
represented that Haskins had deposited a down
payment of about $17,000 at closing, when in fact
he had not. After the closing, Bouchard's office
submitted the false HUD-1 form to BNC, which
provided Haskins a mortgage of $76,500—over
$40,000 more than the actual sale price. Bouchard
then disbursed funds from the mortgage proceeds,
including a $33,172.03 check made payable to
Haskins that Bouchard gave to Crowley, who
deposited it into his personal account.
The second transaction occurred in April 2005
and, like the first, closed at Bouchard's law firm.
Bouchard was present at the sale's closing and
signed two HUD-1 forms in connection with a sale
of property located at 4 Kaatskill Way in Ballston
Spa, New York. One of the HUD-1 forms
represented that the sale price was $224,000,
while the other HUD-1 form, ultimately submitted
to BNC, certified a higher sale price of $240,000.
Bouchard's personal involvement in signing and
submitting false HUD-1 forms was only part of
the Government's evidence that he knew the
schemes were fraudulent. At various times,
Bouchard also made direct statements that
together demonstrated his knowledge and
culpability. For example, Bouchard was unfazed
when Disonell initially confided to Bouchard that
Crowley and O'Connell, the masterminds of the

I

47a

PB Enterprises fraud, used “double HUDs” at
closings and then asked if Bouchard wanted their
business. O'Connell later confirmed to Bouchard
that he and Crowley “wanted to basically buy the
property, have two closings in one day where we
were buying it from somebody at a lower price and
then reselling it at a higher price.” Bouchard
responded that it “wouldn't be a problem” and
agreed to team with O'Connell and Crowley as the
closing agent. Bouchard, O'Connell, and Crowley
also agreed that Bouchard's firm would follow up
each closing by issuing a check to the buyer
reflecting the difference between the actual and
the inflated sale price. And Hinds, one of
Bouchard's paralegals, later testified that
Bouchard authorized disbursements to parties
other than those listed on the HUD-1 forms.
Finally, in July 2005, after the fraudulent
schemes had stretched for more than four years,
federal agents interviewed Bouchard as part of a
criminal investigation of Disonell and Kupic.
During the interview Bouchard admitted that “in
about 50 percent of his closings” the fund
disbursements were “different than indicated on
the HUD-1 form” at the buyer's and seller's
direction. While acknowledging that the
disbursements were “weird,” Bouchard insisted
that they reflected “standard practice” in the real
estate industry and explained that he “was only
concerned that his corporate accounts that show
the money that would come in from the lender had
zeroed out at the end of the transaction.”

48a

B. The Defrauded Lenders
Two of the principal lenders victimized by the
mortgage fraud
schemes
were
Fremont
Investment and Loan (“Fremont”) and BNC.
Fremont and its depository accounts were insured
by the Federal Deposit Insurance Corporation
(“FDIC”). BNC, while not itself federally insured,
was wholly owned by Lehman Brothers, which
was federally insured and provided BNC with a
“warehouse line of credit” to fund BNC's
mortgages.
At trial, Bouchard admitted that he knew
Lehman Brothers and Fremont were both
federally insured but testified that he believed
that BNC was not insured (and, as explained
above, it is not). There was no evidence that
Bouchard knew either that BNC was owned by
Lehman Brothers or that Lehman Brothers was
involved in any of the loans at issue.
C. Procedural History
1. The Jury Verdict
The jury convicted Bouchard of the conspiracy
count (Count One), two substantive bank fraud
counts under § 1344 that arose from transactions
in which Bouchard personally attended the
closing and signed the fraudulent HUD-Is
(Counts Seven and Nineteen), and the § 1014 false
statements count (Count Twenty-Four), which
arose from the same transaction as Count Seven.
All three substantive counts of conviction involved
mortgages funded by BNC.

49a

The jury acquitted Bouchard of all the
remaining counts, however, including several
counts of bank fraud. One of the counts of
acquittal (Count Seventeen) involved a false
HUD-1 submitted to Fremont.
2. The Rule 33 Motion
Soon after the jury verdict, O'Connell told the
Government that his testimony about meeting
Bouchard was false and that, in fact, “he never
met Michael Bouchard.” O'Connell explained that
he had initially so informed the trial prosecutors,
one of whom threatened that “if you do not tell us
you met with Michael Bouchard we can't help
you.” After learning about O'Connell's post-trial
disclosure to the Government, Bouchard moved
for a judgment of acquittal or, in the alternative,
for a new trial under Rule 33 of the Federal Rules
of Criminal Procedure. Among other things,
Bouchard argued that he would have been
acquitted of all the charges against him absent
O'Connell's perjured testimony. He separately
argued that there was insufficient evidence that
BNC was a federally insured financial institution
under § 1344 or § 1014.
After a hearing on the perjury issue, the
District Court denied Bouchard's motion. First,
the court assumed without deciding that
O'Connell had committed perjury at trial. It
concluded, however, that the Government was
unaware of the perjury and that Bouchard failed
to demonstrate that, but for the perjured
testimony, he would most likely not have been

50a
convicted. Second, after considering whether the
Government needed to prove that BNC itself was
a covered institution under § 1344 or § 1014, the
District Court found that Bouchard in any event
defrauded BNC's parent company, Lehman
Brothers, which indisputably was a federally
insured financial institution, and that Bouchard
therefore could be liable for bank fraud. In
support of that finding, the District Court pointed
to (l) Bouchard's “intent to defraud,” (2) “the
integrated transaction involving funds from
Lehman Brother[s],” and (3) “the financial injury
to which Lehman Brothers was exposed as a
result of its ownership of BNC and its provision of
money to fund the loan[s].”
In denying Bouchard's Rule 33 motion with
respect to the § 1014 false statement count, the
District Court pointed out that Bouchard “was an
experienced real estate attorney” who “acted as
the ‘bank's attorney’ for numerous transactions
over many years.” Evidence of Bouchard's
background, the court explained, was “sufficient
to create an inference ... that [Bouchard] knew his
statements would influence a bank.”
3. Sentencing
presentence
report
(“PSR”)
Bouchard's
recommended a Guidelines range of 87 to 108
months based on an offense level of 29 and a
criminal history category of I. The PSR
calculations were premised in part on conduct for
which Bouchard had been acquitted. At
sentencing, the District Court simply adopted the

51a

PSR's findings and guidelines calculation without
separately finding that Bouchard had committed
the acquitted conduct. After determining that the
loss amount associated with Bouchard's crimes far
exceeded his personal gain, the District Court
downwardly departed from the applicable range
and sentenced Bouchard to concurrent terms of 48
months on each count of conviction.
This appeal followed.
DISCUSSION
A. Sufficiency of the Evidence
Section 1344 criminalizes schemes to defraud,
or schemes to obtain the money of, a “financial
institution.” The statute provides in full:
“Whoever knowingly executes, or attempts to
execute, a scheme or artifice—(l) to defraud a
financial institution; or (2) to obtain any of the
moneys, funds, credits, assets, securities, or other
property owned by, or under the custody or control
of, a financial institution, by means of false or
fraudulent
pretenses,
representations,
or
promises; shall be fined not more than $1,000,000
or imprisoned not more than 30 years, or both.” 18
U.S.C. § 1344. Prior to 2009, the term “financial
institution” was defined to include insured
depository institutions of the FDIC, but not
mortgage lenders. See id. §20(l). Similarly,
Section 1014 makes it a crime to knowingly make
“any false statement or report... for the purpose of
influencing in any way the action” of enumerated
financial entities, which, at the time the schemes
were undertaken prior to 2009, included “any

52a

institution the accounts of which are insured by
the [FDIC],” id. § 1014, but again not mortgage
lenders.
As is now well known, the subprime mortgage
crisis some years ago threatened the financial
stability of many federally insured financial
institutions. The crisis prompted Congress in 2009
to amend both § 20 (which defines financial
institutions for purposes of § 1344) and § 1014 to
cover mortgage lending institutions specifically.
Fraud Enforcement and Recovery Act (“FERA”) of
2009, 123 Stat. 1617. Timing is everything: the
conduct for which Bouchard was convicted
occurred prior to 2009.
We therefore consider whether Bouchard's
conduct violated § 1344 and § 1014 before the
enactment of FERA, recognizing that BNC,
though itself not federally insured, was owned by
a federally insured financial institution (Lehman
Brothers), while Fremont was federally insured.
Because the substantive counts of conviction
involved activity directed at BNC only, we
conclude that there was insufficient evidence that
Bouchard intended to defraud or obtain the
property of a “financial institution,” as required by
§ 1344, or to “influenc[e] in any way the action” of
an institution covered by § 1014. We therefore
reverse his convictions on those counts. We
separately conclude that part of the conspiracy
count of conviction involved statements aimed at
Fremont, which both parties agree was a federally
insured financial institution. We therefore affirm
Bouchard's conviction on that count.

53a
1. Section 1344(l)
As noted, the federal bank fraud statute makes
criminal the “knowing[ ] execution]” of a scheme
to “defraud a financial institution.” 18 U.S.C. §
1344. Prior to Loughrin v. United States. 134 S.
Ct. 2384, we interpreted § 1344 as a whole to be “a
specific intent crime requiring proof of an intent
to victimize a bank by fraud,” meaning that “[a]
federally insured or chartered bank must be the
actual or intended victim of the scheme.” United
States v. Nkansah. 699 F.3d 743, 748 (2d
Cir.2012) (quotation marks omitted). The
Supreme Court in Loughrin rejected that
interpretation, holding instead that § 1344(2) does
not require an intent to defraud a bank. It
confirmed, however, that § 1344(l) “includes the
requirement that a defendant intend to ‘defraud a
financial institution’; indeed, that is § 1344(l)'s
whole sum and substance.” Loughrin. 134 S.Ct. at
2389-90.
The Government concedes there was no
evidence that Bouchard specifically intended to
defraud Lehman Brothers or was even aware of
Lehman Brothers' role in the transactions
involving BNC. Relying on United States v.
Brandon. 17 F.3d 409 (1st Cir. 1994), the
Government nevertheless argues that it satisfied
the “intent to defraud” element. Bouchard's
“targeting of BNC, an uninsured mortgage
broker,” it claims, “directly affected Lehman
Brothers because Lehman Brothers funded BNC's
loans and was liable for its losses.” Appellee's Br.
15. We are not persuaded.

.54a
Brandon also involved a fraudulent mortgage
scheme. The defendants targeted brokers and
servicing agents acting on behalf of a federally
insured bank that ultimately approved and
provided the relevant mortgages in that case.
Brandon. 17 F.3d at 418-19. The defendants
argued that “there. was no violation of § 1344
because the scheme to defraud was not knowingly
targeted at a federally insured financial
institution, but instead at the non-federally
insured mortgage brokers.” Id. at 426. The First
Circuit rejected their argument, explaining that
“the government does not have to show the
alleged scheme was directed solely toward a
particular institution; it is sufficient to show that
defendant knowingly executed a fraudulent
scheme that exposed a federally insured bank to a
risk of loss.” Id. (emphasis in original); see also id.
at 426-27 (evidence that the defendants
“fraudulently evaded a known down payment
requirement, whether thought to be imposed” by
the brokers, the agents, or the insured bank itself,
“is sufficient to support a bank fraud conviction,”
so long as “the government ... establish[es] that a
federally insured bank ... was victimized or
exposed to a risk of loss by the scheme to
defraud”); United States v. Walsh. 75 F.3d 1, 9
(1st Cir.1996) (explaining that “Brandon ...
confirm [s] that a defendant can violate section
1344 by submitting the dishonest loan application
to an entity which is not itself a federally insured
institution” but that is funded by such an
institution).

55a

Brandon conflicts with our precedent insofar as
it holds, as the Government claims, that a
defendant satisfies the intent element of § 1344(l)
merely by submitting the dishonest loan
application to an entity which is not itself a
federally insured institution without also
intending to deceive the entity's insured owner.
Contrary to Brandon, we have held that § 1344(l)
requires the Government to show that a
defendant intended to defraud the financial
institution itself. See United States v.
Stavroulakis. 952 F.2d 686, 694 (2d Cir. 1992);
United States v. Rodriguez. 140 F.3d 163, 168 (2d
Cir. 1998); United States v. Laliie. 184 F.3d 180,
189-90 (2d Cir. 1999). To be sure, the Government
is not required to prove that a defendant knows
that the entity targeted by the fraud is a federally
insured bank. See Nkansah. 699 F.3d at 758
(Lynch, <L, concurring) (noting that “for the
federal government to exercise its criminal powers
over an individual, it is not logically necessary for
that person to know or intend that she is
transgressing a particularly federal interest”
(emphasis in original)). But it remains true that a
defendant cannot be convicted of violating §
1344(l) merely because he intends to defraud an
entity, like BNC, that is not in fact covered by the
statute.
Brandon also appears to us to conflict with
Loughrin, which, though focused on § 1344(2),
suggests that a defendant must intend to defraud
a bank in order to be convicted under § 1344(l). In
Loughrin. the Supreme Court affirmed the

56a

defendant's conviction for bank fraud, even
though his “intent to deceive ran only to [a nonfederally insured entity], and not to any of the
banks on which his altered checks were drawn.”
134 S.Ct. at 2389. The Court rejected the
defendant's argument that § 1344(2) required the
Government to prove “not just that a defendant
intended to obtain bank property (as the jury ...
found), but also that he specifically intended to
deceive a bank.” Id. The defendant's reading of §
1344(2) was untenable, the Court stated, because
it would impose the same requirements on a
conviction under § 1344(2) as apply to a conviction
under § 1344(l) and thus “would render § 1344's
second clause superfluous.” Id. at 2389. In other
words, the Court reasoned, § 1344(2) imposes no
requirement that a defendant “specifically intend[
] to deceive a bank” because § 1344(l) already
requires that specific intent. Id.
For these reasons, we decline to adopt the
holding in Brandon and conclude that the
evidence was insufficient to sustain Bouchard's
conviction under § 1344(l).
2. Section 1344(2)
The Government argues in the alternative that
the evidence was sufficient to convict Bouchard
under § 1344(2).9 In rejecting this argument, we
9 Bouchard initially argued that we should only consider the
sufficiency of the evidence under § 1344(l), but before oral
argument he withdrew the argument based on the Supreme
Court's supervening decision in Musacchio v. United States.

57a

are again guided by Loughrin. Under § 1344(2),
the Government must prove “that the defendant
intend[ed] ‘to obtain any of the moneys ... or other
property owned by, or under the custody or control
of, a financial institution > >5 that is, “inten[ded] ‘to
obtain bank property.’ ” Id. at 2389. Although the
Supreme Court ultimately determined that
Loughrin had waived the argument that he did
not “intend” to obtain bank property, id. at 2389 n.
3, the Court assumed that “intent ‘to obtain bank
property’ ” is an element of a conviction under §
1344(2) and that a defendant must at least know
that the property belongs to or is under the
custody or control of a bank.10 See id. at 2389,
2393 n.6.
At oral argument the Government urged that
BNC itself may loosely be regarded as a bank or
financial institution within the meaning of 18
U.S.C. § 20 because “it is colloquially [a bank or
financial institution]... [insofar as] it lends
money.” We reject this novel argument. First, a
“financial institution” is not a loose or colloquial
term, but a term of precise definition that can lead
to grave criminal consequences. Second, we are
mindful that § 1344(2) should not be read to
-----U.S.
136 S.Ct. 709, 715, 193 L.Ed.2d 639 (2016).
See United States v.Bouchard, No. 14-4156-cr (2d Cir.),
ECF Docket No. 72.
10 As with § 1344(l), a defendant need not know that the
bank is federally insured, nor aim to obtain the property of
one bank in particular.

58a
“federaliz[e] frauds that are only tangentially
related to the banking system,” which is § 1344's
core concern. Loughrin, 134 S.Ct. at 2393
(quotation marks omitted). For that reason, and
particularly when bank subsidiaries may be
engaged in activities far afield of the core
functions of our federal banking system, it is
important (absent legislative direction to the
contrary) to distinguish subsidiaries of banks from
the banks themselves. See United States v.
Bennett. 621 F.3d 1131, 1136 (9th Cir. 2010)
(banks are distinct legal entities from their
subsidiaries for the purposes of § 1344(2)); see also
United States v. White. 882 F.2d 250, 253 (7th
Cir. 1989) (in the context of § 1014, “it would be ...
perilous to assume that Congress wanted to
extend the statute's protection to [financial
institutions'] affiliates, when so far as appears
there is no (or only the most attenuated) federal
stake in preventing fraud against affiliates of a
federally insured bank, as distinct from fraud
against the bank itself’).
We also note that Congress has been willing
and able to amend the bank fraud statute to cover
new conduct by new actors that it determines does
directly affect the banking system. For example,
as we have already mentioned, in 2009 Congress
amended both § 20 and § 1014 to cover mortgage
lending institutions specifically. FERA, 123 Stat.
1617 (2009). In doing so, Congress appears to
have understood that § 1344 (through § 20 ) and §
1014 “only applie[d] to Federal agencies, banks,
and credit associations and d[id] not necessarily

59a
extend to private mortgage lending businesses,
even if they are handling federally-regulated or
federally-insured mortgages.” See S. Rep. 111-10,
2009 U.S.C.C.A.N. 430, 432. As the Senate
committee report on FERA explained, “the bill
amend [ed] the definition of ‘financial institution’
in the criminal code ... in order to extend Federal
fraud laws to mortgage lending businesses that
are not directly regulated or insured by the
Federal Government.” Id. at 432.
At the time of the charged conduct, all of which
occurred
before
the
2009
congressional
amendments, BNC was not a covered institution.
Of course, the Government might have been able
to prove that Bouchard knew that money from
mortgage lenders came from banks by virtue of
his knowledge of the industry. But it failed to
make this argument or proffer evidence of
Bouchard's extensive knowledge of the real estate
and mortgage lending industry as a reason to
convict him at trial.
3. Section 1014 (Count Twenty-Four)
Bouchard also challenges the sufficiency of the
evidence supporting his conviction on Count
Twenty-Four, which charged him with making
false statements to a bank in connection with the
March 2005 transaction involving the property in
Troy, New York. As both the Government and
Bouchard agree, § 1014 does not require the
Government to prove that a defendant knew that
the bank is insured by the FDIC, but it does
require the Government to prove that the

60a
defendant “kn[ew] that it was a bank ... to which
he has made the false statement in his application
for a loan” and that he “intended to influence.”
United States v. Sabatino. 485 F.2d 540, 544 (2d
Cir. 1973).
The HUD-1 that Bouchard signed and
submitted in connection with the March 2005
transaction did not reveal that the loan would
ultimately be financed by Lehman Brothers. It
listed only BNC as the lender. As we have
suggested the Government might have been able
to argue with respect to the § 1344 charges, it now
contends that Bouchard “must have known” that
the loan would ultimately be financed by Lehman
Brothers because of his experience in the real
estate industry. See United States v. Grasso, 724
F.3d 1077, 1081, 1088 (9th Cir. 2013) (a jury could
reasonably conclude that the defendant knew that
his false statements would influence an insured
bank because, among other things, he “was an
experienced real estate agent who ... was wellversed in the mortgage lending process” and who
“targeted banks” with lenient standards for their
lending agents). Under the circumstances of this
case, however, we reject the Government's
argument.
First, as we explained above, the Government
never presented this theory of Bouchard's
knowledge to the jury. We are disinclined to
affirm a conviction based on a theory that was not
advanced regarding a critical element. See United
States v. Rigas. 490 F.3d 208, 231 n. 29 (2d Cir.
2007). Second, at trial there was no evidence of

61a

what a real estate attorney with Bouchard's
experience would have known regarding the
connection between non-federally insured brokers
or lenders (like BNC) and federally insured
institutions (like Lehman Brothers). Nor was
there any evidence that Bouchard deliberately
“targeted banks” that imposed lenient standards
for their lending agents. See Grasso. 724 F.3d at
1081. Accordingly, even if we entertained the
Government's theory for the first time on appeal,
we would conclude that there was insufficient
evidence at trial to support it.
We therefore reverse Bouchard's conviction on
Count Twenty-Four for violating § 1014.
4. Conspiracy (Count One)
We next turn to Bouchard's conviction on Count
One of the indictment, for conspiracy to violate §
1014. Count One charged four overt acts involving
the submission of false HUD-Is to three different
institutions. Only one of the institutions,
Fremont, was proven to be a federally insured
financial institution. Pointing to his acquittal on
the substantive count involving the Fremont
transaction (Count Seventeen), Bouchard urges us
to assume that the jury wrongly convicted on a
different overt act involving one or both of the two
other victimized institutions that were not proven
to be federally insured.
We generally affirm convictions as long as there
was sufficient evidence to support one of the
theories presented. See Griffin v. United States.
502 U.S. 46, 56—57 (1991). “[I]n the absence of

62a

anything in the record to show the contrary, the
presumption of law is that the court awarded
sentence on the good count only.” Id. at 50
(quotation marks omitted); accord United States
v. Duncan. 42 F.3d 97, 105 (2d Cir.1994). We
conclude that Bouchard's acquittal on the
substantive count is not “to ... the contrary.”
Griffin. 502 U.S. at 50, 112 S.Ct. 466. Without a
special verdict form demonstrating that the jury
convicted on a theory not supported by sufficient
evidence, see United States v. Framnton. 382 F.3d
213, 224-25 (2d Cir. 2004), we can easily reconcile
the jury's verdict to acquit on the substantive
count involving Fremont with its finding that an
overt act involving Fremont occurred as part of
the conspiracy. The differing verdicts might, for
example, simply reflect the fact that the Fremont
closing was attended by one of Bouchard's
paralegals rather than Bouchard, and the jury
may reasonably have declined to find Bouchard
guilty
of
the
substantive
count
and
simultaneously determined that his co-conspirator
(the paralegal) committed the overt act charged in
the conspiracy count. See United States v.
Palmieri, 456 F.2d 9, 12 (2d Cir. 1972).
For these reasons, we affirm Bouchard's
conviction on the conspiracy count.
B. O'Connell's Alleged Periurv
We next consider whether Bouchard was
entitled to a new trial under Rule 33 of the
Federal Rules of Criminal Procedure because of
O'Connell's alleged perjury. The trial judge is “in
the best position to appraise the possible effect” of

63a
newly discovered evidence on the jury's verdict,
United States v. Stewart, 433 F.3d 273, 301 (2d
Cir. 2006) (quotation marks omitted), and so we
review the denial of a Rule 33 motion for abuse of
discretion, United States v. Sessa. 711 F.3d 316,
321 (2d Cir. 2013).
In denying Bouchard's Rule 33 motion, the
District Court never found that O'Connell in fact
committed perjury. But it did find that the
Government lacked knowledge of any perjury.
Under those circumstances, even assuming
perjury, we must be left with “a firm belief that
but for the perjured testimony, the defendant
would most likely not have been convicted.”
United States v. Ferguson, 676 F.3d 260, 282 n.
19 (2d Cir. 2011) (quotation marks omitted). With
that standard in mind, we conclude that the
District Court did not abuse its discretion in
denying the motion.
First, as Bouchard acknowledges, defense
counsel strongly undercut O'Connell's credibility
on cross-examination. In particular, on crossexamination O'Connell (l) was unable to recall
when and where he had a conversation with
Bouchard about payouts not reflected on the
HUD-ls, (2) confirmed that he had not had any
real conversation with Bouchard, (3) admitted
that it “wasn't really [his] role in the company to
deal with” Bouchard and that he did not deal
directly with Bouchard in connection with any of
the closings that were the subject of his testimony
on direct examination, and (4) acknowledged that

64a

he did not talk to Bouchard about the use of
“double-HUDs ”n In sum, the highly equivocal
nature of O'Connell's testimony about meeting
with Bouchard “rendered the significance of his
perjury minimal.” United States v. Torres. 128
F.3d 38, 49 (2d Cir.1997).
Bouchard counters that O'Connell's testimony
was unduly prejudicial because it was used to
undermine his own testimony on crossexamination. He asserts that the “prosecutor
effectively used O'Connell's perjury to suggest
that Bouchard was lying about never having met
O'Connell or Crowley.” Appellant's Reply Br. 19.
But the prosecutor's cross-examination focused
largely on how Bouchard's knowing participation
in the scheme was central to its success, not on
O'Connell's testimony. And in its jury summation
the Government conceded that O'Connell had not
discussed the scheme with Bouchard. Moreover,
we are satisfied based on our review of the record
that there was ample independent evidence
proving that Bouchard was aware of the
fraudulent nature of the schemes. That evidence
included Disonell's testimony that he disclosed to
Bouchard that the closings with O'Connell and
Crowley would involve “double HUDs.”

n Moreover, Bouchard was able to testify at trial that “[w]e
have the transcript from Kevin O'Connell and he said that
no such meeting occurred.”

65a

We therefore affirm the District Court's denial of
Bouchard's Rule 33 motion based on O'Connell's
testimony.12
CONCLUSION
12

Because we vacate the judgment of conviction in part and
remand for resentencing, we need not address Bouchard's
argument that the District Court committed procedural
error in calculating his Guidelines range based on acquitted
conduct. We nevertheless offer a few words of guidance for
resentencing based on acquitted conduct. “A district court
may treat acquitted conduct as relevant conduct at
sentencing, provided that it finds by a preponderance of the
evidence that the defendant committed the conduct.” United
States v. Pica. 692 F.3d 79, 88 (2d Cir.2012). With respect to
conduct by a co-conspirator, “a district court must make a
particularized finding as to whether the activity was
foreseeable to the defendant” and must “make a
particularized finding of the scope of the criminal activity
agreed upon by the defendant.” United States v. Studlev. 47
F.3d 569, 574 (2d Cir.1995). This is true even in the case of a
conspiracy conviction, because “the scope of conduct for
which a defendant can be held accountable under the
sentencing guidelines is significantly narrower than the
conduct embraced by the law of conspiracy.” United States
v. Getto. 729 F.3d 221, 234 n. 11 (2d Cir. 2013) (quotation
marks omitted). Insofar as it bases any resentence on
acquitted conduct, the District Court must make
particularized findings either that Bouchard actually
committed the acts or that the acts of his co-conspirators
were both foreseeable to him and fell within the scope of
criminal activity to which he agreed.

66a

For the foregoing reasons, we REVERSE
Bouchard's convictions on Counts Seven,
Nineteen, and Twenty-Four, AFFIRM his
conviction on Count One, and REMAND for
resentencing.

67a

APPENDIX G
t.

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK
UNITED STATES OF AMERICA,
v.

Case No. U12-CR-381

MICHAEL BOUCHARD,
Defendant.

APPEARANCES- Gaspar M. Castillo, Jr., Esq.,
Law Office of Gaspar M. Castillo, Jr. Gaspar M.
Castillo, Jr., Esq., 817 Madison Avenue, Albany,
New York 12208, For the Defendant. Richard S.
Hartunian, United States Attorney, Edward R. Broton,
Assistant United States Attorney Michael C.
Olmsted, Assistant United States Attorney, Tamara
Thompson, Assistant United States Attorney, P.O.
Box 7198, 100 South Clinton Street, Syracuse, NY
13261, For the Government.
Hon. Norman A. Mordue, Senior, U.S. District
Judged
MEMORANDUM DECISION AND ORDER

68a

I. INTRODUCTION
On November 30, 2012, a jury convicted
defendant Michael Bouchard of conspiring to
make false statements to financial institutions in
violation of 18 U.S.C. § 371 (Count l), bank fraud
in violation of 18 U.S.C. § 1344 (Counts 7 and 19)
and making a false statement to a mortgage
lender in violation of 18 U.S.C. § 1014 (Count
24).13 The conspiracy conviction stems from
defendant’s role as a closing agent, between 2000
and 2007, for a number of mortgage lenders,
including Fremont Investment & Loan, and the
submission of HUD-1 settlement statements to
lenders, which falsely stated the buyers made
cash down payments and also contained false
accounts of how mortgage proceeds were
disbursed at closing. The bank fraud and false
statement convictions stem from defendant’s role
as BNC Mortgage’s closing agent for real estate
transactions concerning 735 Burden Avenue in
Troy, New York in March 2005 (bank fraud and
false statement) and 4 Kaatskill Way in Ballston
Spa, New York in April 2005 (bank fraud).
Defendant moves (Dkt. No. 35) for a judgment of
acquittal under Fed.R.Crim.P. 29(c)(2), or, in the
alternative, for a new trial under Fed.R.Crim.P.

13 Defendant was acquitted of twenty counts of bank fraud
in violation of 18 U.S.C. §1344 (Counts 2-6, 8-18, and 20-23).

69a
33(a) (Dkt. No. 36). The government opposes
defendant’s motions.
II. EVIDENCE AT TRIAL
Michael Bouchard was the sole practitioner at
The Bouchard Law Firm in Albany, New York. He
provided general legal services wherein the bulk
of his business came from conducting real estate
transactions. Defendant’s paralegal secretaries,
Laurie Hinds and Malissa Edgerton, prepared the
documents for and conducted the majority of the
real estate closings at issue in this case, though he
handled some personally. The role of The
Bouchard Law Firm in all transactions relevant to
this case was as the closing agent for the bank or
mortgage lender.
A. Real Estate Consultants and Team Title
In or about 2000, The Bouchard Law Firm
began conducting real estate closings that
involved “Real Estate Consultants” and its owners
Tom Disonell and Matt Kupic. Disonell could not
recall how they met but testified that defendant
was the closing agent for a number of their
transactions. During the course of the conspiracy,
defendant’s office handled at least 20 closings that
involved Disonell and Kupic. The mortgage
lenders that defendant represented at these
closings paid between $400 and $500 per closing.
Disonell and Kupic “structured” their
transactions a number of ways in order to garner
“consulting fees” for themselves from mortgage
proceeds. One way they did this was with a
“repair rebate” scheme. Disonell and Kupic would

70a
find distressed properties for sale, enter
agreements to buy them then recruit buyers to
purchase the same properties but at much higher
sales prices.14 Disonell and Kupic promised the
buyers that they would not need a down payment
to buy the properties and that they would receive
cash back at closing for property repairs.
The buyers sought mortgages based on the
inflated sales prices. Prior to closing, the
mortgage lenders would wire the mortgage
proceeds to defendant’s escrow account. Since only
a portion of the mortgage proceeds was necessary
to pay the lower sales prices, Disonell and Kupic
would appropriate the remaining proceeds to
themselves by directing defendant’s office, the
closing agent, to issue checks to them at closing
for their “consulting fees” and “repair rebates”.
According to the evidence at trial, in order to
ensure the lenders would fund the loans, the
participants had to conceal: the actual (lower)
sales price of the properties! the fact that the
buyers brought no cash to closing! and the
disbursement of mortgage proceeds to Disonell,
Kupic and persons other than the seller. Disonell
explained that the checks defendant’s office issued
to him from the mortgage proceeds were not
recorded on the HUD-1 settlement statements
that defendant’s office returned to the lenders,
because if they were, “the bank probably wouldn’t
have approved the deal”. Indeed, as will be
14 The evidence at trial indicated that few, if any, of the
buyers they recruited were aware of the lower sales prices.

71a

discussed, representatives of two of the victim
mortgage lenders testified that had the lenders or
underwriters who approved the loans known any
of these facts, the loans would not have been
funded, or would have been unwound and
defunded after closing.
To conceal the actual sales price and the
disbursements of mortgage proceeds, which were
outside the parameters of the lenders’ closing
instructions,
the HUD-1
the settlement
statements defendant’s office returned to the
lenders reflected the higher sales price, falsely
stated the amount of mortgage proceeds disbursed
to the sellers, and did not report the
disbursements to the buyers or “consultants”.
Concealing the absence of a down payment,
however, was more involved.
The mortgage lenders victimized in this case
issued mortgages for 80 or 90 percent of a
property’s appraised value or sales price,
whichever was lower, and required the buyer to
bring the remaining 10 or 20 percent in cash to
the closing.15 Disonell and Kupic, who promised
their buyers they would not need to bring cash to
the closing, overcame this requirement by
providing the buyers with cashier’s checks or
certified checks in the required amounts, which
15 Kelly Monahan, former Chief Executive Officer of BNC
Mortgage, explained that BNC Mortgage required a down
payment so that the borrower would have “skin in the game”
- or a vested interest in the property.

72a

defendant’s office copied, submitted as proof of
funds to the lenders, then returned to the buyers
uncashed. At trial, Kupic explained:
on the HUD it said what money needed to be
brought, but the check was basically, there
was a copy made of it, sent to the bank, the
check was supposed to go to the seller to
make the [100 per cent - the total sales price
of the property when added to the mortgage
proceeds], but it was never given to the
seller, it was always given back to us, but it
wasn't -- that part, that it was given back to
us was never disclosed on the HUD.
Since, unbeknownst to the lenders, only a
portion of the mortgage proceeds was needed to
pay the lower sales price agreed to by the sellers,16
the down payments were unnecessary and the
remainder of the proceeds could be used to give
“repair rebates” to the buyers and “consulting
fees” to Kupic and Disonell for bringing about the
transaction. Disonell testified that on at least one
occasion prior to closing, he could not recall which
one, he gave defendant a list specifying how to
disburse the mortgage proceeds. Disonell stated
that defendant then directed his paralegals to
issue checks from his escrow account to the
individuals and in the amounts specified on

16 The evidence at trial indicated that the sellers did not
know that the buyers Disonell and Kupic recruited were
paying a higher sales price for the properties.

73a

Disonell’s list. Disonell testified that he and
defendant:
did so many deals together, we just knew
that at the end of my closings, I was going to
walk in and give him a list of checks to cut,
and as long as he only disbursed what the
bank sent in, he just did what I asked him to
do. If the bank sent in a hundred dollars and
I told him break this ... up these 35
different ways, he would just do it.
He further stated: “I only did it a few ways, either
... I directly walked into Mike’s office or gave [the
list] to him or depending on how the closing was,
if it was busy I would have given it to” Laurie
Hinds or Malissa Edgerton.
Kupic testified that the paralegals handled “the
vast majority” of the closings he attended at The
Bouchard Law Firm but that there “were a few
instances where [defendant] was there” in the
closing. Kupic stated that the HUD-ls prepared
for these closings, the ones defendant attended
personally, fraudulently reported the money paid
to the seller, the disbursements that were made at
the closing, and the property’s sales price.
Hinds testified that when she was first asked to
“cut” checks from the mortgage proceeds, she
“would have initially asked Attorney Bouchard
whether or not, the seller's attorney was
requesting checks to be cut, whether, you know,
from the proceeds if that would be acceptable, and
then subsequently thereafter I didn't check every
single time with him on every check that was

74a

changed from the HUD.” Hinds further testified
that she was aware that the HUD‘1 she sent back
to the lender did not accurately disclose the
disbursements that were made at closing but that
“no one said it necessarily wasn't okay, it was that
the checks that we cut didn't necessarily match
which I had confirmed with Attorney Bouchard
was originally like okay to cut those checks .... It
was acceptable.” On most occasions, Hinds or
Edgerton signed the HUD-1 statements for The
Bouchard Law Firm as the “Settlement Agent”.
Eventually, Disonell and Kupic abandoned Real
Estate Consultants and started Team Title
Abstractors, which handled title insurance. They
began doing title work for, among others, Michael
Crowley and Kevin O’Connell, who were also
doing “creative deals” in the Albany area through
their company, PB Enterprises.
B. PB Enterprises and Greater Atlantic
In 2000, O’Connell and Crowley began buying
properties. Crowley testified that they each
bought three properties with no money down and
got, “money back” at closing. Crowley stated that
after their initial success, they formed PB
Enterprises and Greater Atlantic and started
advertising to attract people who “wanted to get
into investment properties”. Crowley explained
that people “would call us and so we would find
properties that we could buy cheap and sell high
basically, and make ... a decent profit.” Crowley
stated that in order to do this that they used a
“double HUD” scheme, which was similar to the

I

75a

repair rebate scheme. They would contract to buy
properties under the name Greater Atlantic, find
buyers to purchase the same properties at inflated
sales prices, promising no down payment and cash
back at closing then assign Greater Atlantic’s
right to purchase the properties to the buyers they
had recruited.
Like Disonell and Kupic, Crowley and
O’Connell collected consulting fees from the
mortgage proceeds that remained after the seller
had been paid at the lower price. The double HUD
scheme, however, required the closing agent to
prepare two HUD-1 settlement statements. The
first would reflected the lower sales price and the
second would reflect the higher sales price. The
closing agent would return the second HUD-1 to
the lender, thus concealing from the lender the
property’s actual (lower) sales price. These HUDls would also state falsely state that the buyers
brought cash to closing and would not disclose the
amounts disbursed to Crowley, O’Connell or the
buyer from the mortgage proceeds.
Disonell testified that after he and Kupic
transitioned to Team Title, he received a call from
Nickole Riley Sutliff, a mortgage broker whom
they had used. Sutliff told Disonell that she had a
“huge client, they’re doing double HUDs,” and
asked whether he could “do” double HUD closings.
Disonell told Sutliff that he did not. Disonell
stated that after talking to Sutliff, he called
defendant and said- “Mike ... - - Nickole’s got this
customer who’s doing double HUD closings, would
you like to do it, he said yes.”

76a

Crowley testified that he and O’Connell were
introduced to Disonell and Kupic by Sutliff.
Crowley stated that after he explained “the whole
process”, Disonell told them he had “a closing
agent, an attorney’s office that will do that for
you.”

Crowley testified that he and O’Connell met
defendant at his office and said “we just wanna
make sure that we’ll be able to buy a house for 40,
sell it for 80 and get the profit and he said no
problem, I’ll take care of it.”
O’Connell’s recollection was different. O’Connell
testified that he never spoke to Disonell about
using defendant as a lawyer and that he and
Crowley were introduced to defendant by Sutliff.
O’Connell stated that when they met, they told
defendant “[t]hat we wanted to basically buy the
property, have two closings in one day where we
were buying it from somebody at a lower price and
then reselling it at a higher price.” According to
O’Connell, defendant responded that “[t]hat
wouldn’t be a problem.”
On cross-examination, however, O’Connell
stated that he could not recall the date Or location
of this conversation with defendant and explained
that it “wasn’t really my role in the company to
deal with him.” When defense counsel asked: “the
point of the matter ... is you didn’t have any
conversations with him, isn’t that right?”,
O’Connell responded, “[w]ell, we had the closing
so I must of.” O’Connell stated that he never
discussed with defendant their practice of lending

77a

money to buyers in order to show they had
sufficient funds for closing. O’Connell also stated
that he did not deal “directly” with defendant “in
connection with any of the closings” about which
he testified at trial.
According to the evidence, defendant’s office
handled at least 44 closings involving PB
Enterprises and Greater Atlantic during the
course of the conspiracy. The mortgage lenders
paid defendant’s office approximately $500 per
closing.
C. Closings
At trial, the government presented evidence
documenting a number of closings at defendant’s
office that involved Real Estate Consultants or
Team Title, PB Enterprises, and mortgage broker
Sutliff. Below is a summary of the evidence
presented at trial regarding three of these
transactions. The first was alleged as an overt act
in furtherance of the conspiracy charged in Count
1, the second and third transactions were the
subjects of the substantive bank fraud and false
statement counts (Counts 7, 19 and 24) of which
defendant was convicted.
1. Count 1 - Conspiracy - Overt Act
147 Fifth Avenue
According to the evidence introduced at trial, on
January 28, 2005, “Greater Atlantic Assoc, and or
Assigns” contracted to purchase 147 Fifth Avenue
in Troy, New York for $40,000. O’Connell testified
that Brian Haskins subsequently agreed to buy
the property for $110,000 and to obtain a

78a

mortgage in the amount of $88,000, which was 80
percent of the sales price. Haskins testified that
he was told (by a PB Enterprises representative)
that he would receive “$7,000 back at the closing.”
Haskins obtained a mortgage from Fremont
Investment & Loan, which was a “wholesale
lender”. Irma Valdez, a senior investigation
research specialist for Fremont,17 testified that as
a
wholesale lender, Fremont received mortgage
applications through mortgage brokers, who
helped prospective buyers complete the
applications and then “shoptped]” them to various
lenders for financing. Valdez stated that Fremont
reviewed the applications “in house” and, after
evaluating the documentation included with the
applications, including income and credit risk,
underwriters approved or declined the loans.
17 Valdez testified that she currently works for Signature
Group Holdings, a successor in interest to Fremont
Reorganizing Corporation formerly known as Fremont
Investment and Loan. Valdez stated she was a senior
underwriter in Fremont’s lending division from 1997 to
2002. Valdez testified that from 2002 to 2008 she was a
senior training specialist and in that position her job was to
“train account executive nationwide on Fremont’s
underwriting guidelines”. In 2008, though her title has
changed over time and is now senior investigation research
specialist, her job since then has consisted of investigating
mortgage fraud and stolen identity and working “closely
with the legal department in investigating origination
issues.”

79a
Valdez testified that once approved, an account
manager and “doc. person” worked “closely with
the closing agent... to get the docs prepared and
sent out for the borrower to sign”. Once the
closing agent “complete [d] the closing process” the
agent sent “certain paperwork back to us” and
closed the loan. Valdez stated that Fremont would
“fund the money to [the closing agent’s] account to
help . . . disburse the funds based off the
information in the file.” Valdez testified that
Fremont used the closing agent selected by the
mortgage broker, which, in this instance, was The
Bouchard Law Firm.
The closing on 147 Fifth Avenue occurred on or
about March 30, 2005 at The Bouchard Law Firm.
That same day, Fremont wired $85,952.50 to
defendant’s escrow account to fund the mortgage.
According to the HUD-1 that Edgerton prepared
and returned to Fremont: the contract sales price
was $110,000; the “Principal amount of new loan”
that Fremont was lending to Haskins was
$88,000; and Haskins brought $31,961.26 to the
closing. The HUD-1 also indicated that from the
funds brought to the closing table: $36,748.38 was
paid to satisfy what remained of the seller’s
mortgage on the property; $2,535.50 was paid to
satisfy the seller’s settlement charges; and
$71,906.88 was paid to the seller. The evidence at
trial included a copy of a cashier’s check from
Haskins dated March 30, 2005 for $31,961.26.
Haskins testified that he brought no cash to the
closing. O’Connell explained that they “let him
borrow” the $31,961.26 check “to show that he had

80a

enough for closing costs” and that Haskins
returned the check to them after the closing.
Edgerton testified that a copy of the check was
faxed to The Bouchard Law Firm but was never
deposited into defendant’s escrow account.
According to the other HUD-1, which was not
sent to Fremont: the contract sales price was
$41,000; the “Principal amount of new loan” was
$0; and the buyer, Haskins, brought $49,961.26 to
the closing. After the payoff of the seller’s
mortgage on the property, as well as other
settlement charges, the HUD-1 indicates that:
$36,748.38 was paid to satisfy what remained of
the seller’s mortgage on the property; $2,535.50
was paid to satisfy the seller’s settlement charges;
and $1,906.88 was paid to the seller.18
From the Fremont mortgage proceeds left in
defendant’s escrow account after the seller’s
mortgage balance and closing costs had been paid,
defendant’s office issued the following checks: a
check to the seller dated March 30, 2005 for
$1,906.88 and a check to Haskins dated March 30,
2005 for $38,038.74. Neither HUD-1 reflected
defendant’s issuance of a $38,038.74 check to
Haskins,
On March 31, 2005, the $38,038.74 check was
deposited into PB Enterprises’ account. The
18

Both HUD-ls indicated that the Title Insurance was paid
to Team Title and the mortgage broker fee was paid to
Greater Atlantic.

81a

record contains copies of five checks associated
with 147 Fifth Avenue issued from PB
Enterprises’ account: a check to O’Connell dated
March 31, 2005 for $10,000; a check to Crowley
dated March 31, 2005 for $10,000; a check to
Crowley dated April 11, 2005 for $15,000; a check
to Haskins dated March 30, 2005 for $7,000; and a
check to Kevin D. O’Connell19 for $2,000.
Valdez testified that Fremont would not have
“funded the loan if the borrower did not bring the
31,000 as indicated on the HUD, because that’s
the way the loan was approved.” Valdez explained
that Fremont relies on the documentation it
receives from its closing agent as evidence that
the buyer brought cash to the closing. Valdez
testified that if Fremont’s “underwriter was aware
of this purchase contract [with a sales price of
$41,000, not $110,000] this loan would not have
funded [sic].” Valdez stated that had Fremont
known that the seller only received $1,906.88, not
$71,906.88, the amount that appeared on the
HUD-1 that The Bouchard Law Firm returned to
Fremont, it would have mattered “absolutely”
because “[o]ur closing instructions were not
followed” and if Fremont had known, “we would
have requested our funds back.”
2. Counts 7 and 24 * Bank Fraud and False
Statement
735 Burden Avenue
19 Kevin D. O’Connell, O’Connell’s father, collected referral
fees for finding properties and buyers for PB Enterprises.

82a

O’Connell testified that on or about February 1,
2005, “Greater Atlantic Associates”20 entered a
contract to purchase 735 Burden Avenue in Troy,
New York for $35,000. O’Connell testified that
Greater Atlantic again engaged Brian Haskins to
purchase the property for $85,000, and obtain a
mortgage in the amount of $76,500.
The mortgage for 735 Burden Avenue was
funded by BNC Mortgage. Kelly Monahan, who
was the Chief Executive Officer of BNC Mortgage
and a vice president of Lehman Brothers Bank
during the relevant time period, testified that
once BNC Mortgage received a mortgage loan
application, including a credit report, income
information, and an appraisal, the application
would go to the underwriting department, where
the “creditworthiness of the borrower” would be
considered. The application would also go to the
appraisal department where BNC Mortgage
would review the property’s appraisal. Monahan
explained that BNC Mortgage required a closing
agent to act on its behalf during the closing.
According to Monahan, BNC would hire the
closing agent suggested by the mortgage broker
who submitted the mortgage application as long
as the closing agent passed BNC’s background
check and was not on BNC’s “exclusionary list”.
Monahan testified that BNC expected the
attorney who acted as its closing agent “to follow
the closing instructions because it had various
20 Greater Atlantic was an entity O’Connell and Crowley
formed “to basically place bids on . . . properties.”

83a

requirements and if those requirements weren’t
met, then the loan shouldn’t be closed.”
Hinds testified that after receiving a telephone
call from the loan officer or mortgage originator
informing her that the loan was “clear to close”,
the closing would be scheduled. Hinds stated that
the next phase involved “the closing package”,
which the lender sent along with its “closing
instructions”. Hinds explained that:
Once you get the closing instructions over it
details the
all the information that's
necessary to complete the HUD. So it gives
you the loan number that they have assigned
to the bank, or the bank has assigned to the
particular file, it gives purchase price, it
gives loan amount, it gives mortgage broker
fees, it gives all the bank fees, short-term
interest, all of the fees that are relative to
the bank's portion of the transaction. We
then take, either from a statement of sale
provided either by . . . the buyer's attorney or
by the seller's attorney to complete certain
things, we generate and produce recording
fees and filling in the additional fees that are
required to be on a HUD in order to do the
transaction ....
Prior to the closing on 735 Burden Avenue,
BNC Mortgage sent The Bouchard Law Firm
closing instructions, which stated: “Do not close or
fund this loan unless all conditions in these
closing instructions and any supplemental closing
instructions have been satisfied. The total

84a

consideration in this transaction except for our
loan proceeds and approved secondary financing
must pass to you in the form of cash.” Monahan
explained that these requirements are important:
because we have approved a loan, we need to
sell the loan after we’ve approved it and
funded it and if it doesn’t meet our
guidelines which everything in here is, all
these requirements . . . help it meet our
guidelines and if that doesn’t happen, then
we will have an unsellable loan and
therefore, a loss.
The closing instructions further stated that “All
proceeds must be disbursed upon closing unless
you have received a specific written authorization
to the contrary from us. Do not close or fund this
loan if you have knowledge of a concurrent or
subsequent transactions which would transfer the
subject property.” Regarding the HUD-1
settlement statement, the closing instructions
stated:
the final HUD-1 settlement statement must
be completed at settlement and must
accurately
reflect
all
receipts
and
disbursements indicated in these closing
instructions and any amended closing
instructions subsequent hereto. If any
changes to fees occur, documents may need
to be redrawn and resigned. Send the
certified final HUD-1 settlement statement
to lis at the following address within 24
hours of the settlement.

85a
Monahan testified that BNC funded the loan by
wiring the money to the closing agent’s escrow
account prior to the closing but stated that the
closing agent was “not supposed to close the loan
until all the requirements have been met”.
Edgerton testified that she prepared two HUDls for the closing on 735 Burden Avenue and that
defendant signed both as the settlement agent.
The contract sales price for the property,
according to the first HUD-1, was $35,000. The
contract sales price for the property, according to
the second HUD-1, was $85,000. The principal
amount for the mortgage was $76,500. According
to the second HUD-1, the buyer, Brian Haskins,
came to the closing with $17,177.97. Haskins
testified that he brought no money to the closing
but acknowledged that there was a check dated
March 8, 2005 payable to him in the amount of
$17,177.97. O’Connell testified he and Crowley let
Haskins borrow the check, which had been drawn
on their corporate account, “so that he could show
that he had enough money at the closing.”
Crowley stated that a copy of the check was given
to The Bouchard Law Firm and then the check
was redeposited in the corporate account after the
closing.
At this closing, a check was issued from
defendant’s escrow account to Haskins in the
amount of $33,172.03. This disbursement was not
on either HUD-1. O’Connell explained that this
check reflected the amount of mortgage proceeds
that remained after the seller and all fees had
been paid. Crowley testified that he endorsed and

86a
deposited the check into his personal account and
then issued a check to O’Connell for half that
amount - $16,586. Crowley testified that he wrote
a check to Haskins from the PB Enterprises
account in the amount of $4,000. Edgerton stated
that the second HUD-1, which was signed by
defendant, with the higher sales price - $85,000,
was disclosed to BNC.
Both HUD-ls are signed by Haskins, the seller,
and defendant. Monahan testified that BNC
required that the HUD-1 be signed before the
closing agent disbursed the mortgage proceeds
“[blecause everybody needs to have agreed that
this was the transaction that was being made.”
Monahan testified had BNC known “that the
property was being sold for $35,000, it would not
have provided a mortgage loan in the amount of
$76,500 on the property because it issues loans for
the fair market value of a property, which is the
lower of the appraised value or the sales price.”
Monahan testified that BNC would not have
allowed the mortgage loan to close if it had known
the closing agent was providing “$33,000" to
Haskins because the loan would not have
qualified under its underwriting guidelines.
3. Count 19 - Bank Fraud - 4 Kaatskill Way
This transaction involved mortgage broker
Sutliff as the buyer and took place on or about
April 12, 2005, at defendant’s office. There is no
evidence that PB Enterprises or Team Title were
involved, except that Sutliff, as previously stated,

87a
worked for both as a broker. Sutliff testified that
she, defendant, Edgerton, the seller, the seller’s
attorney and the real estate agents were present.
According to the first HUD-1, the purchase price
was $224,000. According to the second HUD-1,
which was returned to BNC, the purchase price
was $240,000, the mortgage amount was $228,000
and Sutliff was required to bring $16,781 to the
closing. Monahan testified that BNC would not
have authorized a mortgage in the amount of
$228,000 if it had known the actual sales price
was $224,000.
At closing, Sutliff provided Edgerton with a
check for $16,781, which she had obtained from
her bank. Sutliff testified that she brought the
check “so it appears [to the lender] that I did bring
the money”. The check, however, “was not actually
used at the closing table” and was handed back to
her at the closing. Sutliff and the seller signed
the first and second HUD-Is, acknowledging: “I
have carefully reviewed the HUD-1 Settlement
Statement and to the best of my knowledge and
belief. It is a true and accurate statement of all
receipts and disbursements made on my account
or by me in this transaction. I further certify that
I have received a copy of the HUD-1 Settlement
Statement”. Defendant also signed both HUD-ls,
certifying that:
“The HUD-1
Settlement
Statement which I have prepared is a true and
correct account of this transaction. I have caused
or will cause the funds to be disbursed in
accordance with this statement.”

88a
D. Interview with FBI
Michael Hensle, a supervisory special agent
with the FBI testified that in 2005 was
investigating Disonell and Kupic. On July 27,
2005, he interviewed defendant because he had
been the real estate closing agent for a number of
real estate transactions involving Disonell and
Kupic. Defendant told Agent Hensle that at the
time he was completing between 40 and 65
closings per month, though he did not indicate
how many closings were for Disonell and Kupic
except to say that “they had been in regular
business practice”. Agent Hensle asked defendant
about the manner of distributing the proceeds of
the loans during the closings with Disonell and
Kupic. According to Agent Hensle^
In general, [defendant] stated that it was
typical in about 50 percent of his closings to
disburse money different than indicated on
the HUD-1 form. Essentially he said for
insignificant costs associated with the
closings, he would disburse money at the
direction of the buyers and sellers. With
respect to Mr. Kupic and Mr. Disonell, he
would
receive
verbal
and
written
instructions, both him and his staff, about
how he'd like the funds disbursed. And those
funds, disbursed differently than the HUD-1,
were never informed to the lender if you will.
. . . Actually Mr. Bouchard indicated that it
was weird, were his exact words, that the
proceeds that the seller was due would be
disbursed not directly to the seller but to

89a
third parties, and again, that was dictated by
Mr. Kupic and Mr. Disonell.
Agent Hensle testified that when defendant
was asked whether he was “disbursing funds
directly as the HUD indicated and he said no.”
Defendant was also asked “if that was standard
practice and he said yes.” Agent Hensle stated
that defendant “was only concerned that his
corporate accounts that show the money that
would come in from the lender had zeroed out at
the end of the transaction” and that defendant
indicated that he did not “go back and tell the
lenders” about the distributions directed by
Disonell and Kupic because “as long as everything
zeros out, it’s fine.”
E. Defendant’s Testimony
Defendant testified that he was not aware,
during any transaction conducted in his office,
that double HUDs were being used, or that there
were contracts with different prices. Defendant
stated that the total amount his office earned
from the closings he did for Kupic and Disonell in
2002 and 2003
was $9,439, representing
approximately one percent of his office’s total
gross income for those years. His fee for each
closing was approximately $450.
In 2004, the total gross income for defendant’s
firm was $613,776, of that, he received $1,000 in
fees
from the transactions
involving PB
Enterprises. In 2005, defendant’s firm’s total
gross income was $785,442,which included
$20,518 in fees from transactions involving PB

90a

Enterprises. His fee for each closing was $500.
Defendant testified that the income from PB
Enterprises in 2005 comprised “around 2.6
percent” of his firm’s total income.
Regarding the instance when Disonell gave him
a list of checks he was supposed to write,
including checks back to the borrower, defendant
stated that: “was the one occasion where I was in
the closing room with Tom Disonell, the buyer, the
buyer's attorney, the seller, the seller's attorney,
and that's normal protocol if somebody asks to
have a check recut for some particular reason, and
Disonell and Kupic had represented themselves as
being realtors.”
Defendant testified that his client was the bank
but that he did not read the bank’s closing
instructions because he: “assume [s] that
everything’s been done correctly.” Defendant
testified that Disonell gave a handwritten list to
Hinds or Edgerton and that Hinds checked with
him about the list of disbursements. Defendant
could not recall how he responded to Hinds but
acknowledged that the checks issued from his
escrow account matched Disonell’s request. He
further stated that he “was aware of checks being
written that did not match the HUD-1".
Defendant testified that he reviewed the bank
statements regarding his escrow account and the
wire transfers of the mortgage proceeds in
connection with BNC Mortgage all referenced
“DBTO Americas NYC, which ... is Deutsche
Bank trust Companies of America, and that

91a

company is not BNC and it is not Lehman
Brothers.” Defendant testified that he was not
aware that double HUDs were being used in any
real estate transactions that occurred in his office
and never authorized the utilization of double
HUDs.
III. DISCUSSION
A. Motion for a Judgment of Acquittal
Defendant’s principal argument for post-trial
relief is that the evidence was insufficient to
support the verdict, and that therefore the Court
must set aside the verdict and enter an acquittal
under Fed.R.Crim.P. 29(c)(2). The Second Circuit
explains the applicable standard as follows:
In considering a motion for judgment of
acquittal, the court must view the evidence
presented in the light most favorable to the
government. All permissible inferences must
be drawn in the government’s favor. In
addition, the court must be careful to avoid
usurping the role of the jury. ... [U]pon a
motion for judgment of acquittal, the [clourt
must determine whether upon the evidence,
giving full play to the right of the jury to
determine credibility, weigh the evidence,
and draw justifiable inferences of fact, a
reasonable mind might fairly conclude guilt
beyond a reasonable doubt. Rule 29(c) does
not provide the trial court with an
opportunity
to
substitute
its
own
determination of the weight of the evidence

92a
and the reasonable inferences to be drawn
for that of the jury.
United States v. Guadagna, 183 F.3d 122, 129 (2d
Cir. 1999) (citations and internal quotation marks
omitted; alterations added).
Defendant argues, as a general matter, that
none of the witnesses at trial had “clean hands”
and
that
the
co-conspirators
testified
inconsistently with each other at trial. Courts,
however, must “defer to the jury's resolution of
witness credibility and, where there is conflicting
testimony, to its selection between competing
inferences” United States v. Tocco, 135 F.3d 116,
123 (2d Cir. 1998).
A. Conspiracy -18 U.S.C. § 371
Defendant argues that he is entitled to a
judgment of acquittal on his conspiracy conviction.
The general federal conspiracy statute, 18 U.S.C.
§ 371, prohibits “two or more persons [from]
conspir[ing] either to commit any offense against
the United States, or to defraud the United States
or any agency thereof in any manner or for any
purpose, [provided] one or more of such persons do
any act to effect the object of the conspiracy.” 18
U.S.C. § 371. In this case, the underlying federal
offense is the submission of false HUD-1
settlement statements to mortgage lenders for the
purpose of influencing banks insured by the
Federal Deposit Insurance Corporation (“FDIC”)
to fund loans. See 18 U.S.C. § 1014.
“To sustain a conspiracy conviction, the
government must present some evidence from

93a
which it can reasonably be inferred that the
person charged with conspiracy knew of the
existence of the scheme alleged in the indictment
and knowingly joined and participated in it.”
United States v. Rodriguez, 392 F.3d 539, 545 (2d
Cir. 2004) (internal quotations omitted). A
conspiracy “conviction cannot be sustained unless
the Government establishes beyond a reasonable
doubt that the defendant had the specific intent to
violate the substantive statute[s].” United States
v. Gaviria, 740 F.2d 174, 183 (2d Cir. 1984)
(internal quotation marks omitted). “To convict a
defendant as a member of a conspiracy, the
government must prove that the defendant agreed
on the essential nature of the plan, and that there
was a conspiracy to commit a particular offense
and not merely a vague agreement to do
something wrong”. United States v. Lorenzo, 534
F.3d 153, 159 (2d Cir. 2008) (internal citations,
quotation marks and alteration omitted).
1. Knowing Participation in the Conspiracy
Here, it is undisputed that the government
sufficiently proved the existence of a conspiracy to
submit false statements to mortgage lenders in
order to deceive them about the disbursements of
mortgage proceeds. Disonell, Kupic and Sutliff,
and later O’Connell and Crowley and others
associated with them, initiated and carried out a
scheme to defraud mortgage lenders by
submitting false HUD-1 settlement statements
that concealed the actual (lower) sales price of the
property and how the mortgage proceeds were
disbursed and falsely stated that the buyer made

94a
a down payment. Nor does defendant contest that
■ he and his law firm participated in the conspiracy;
the disputed issue is whether he did so knowingly.
To be guilty of conspiracy, “there must be some
evidence from which it can reasonably be inferred
that the person charged with conspiracy knew of
the existence of the scheme alleged in the
indictment and knowingly joined and participated
in it.” United States v. Nusraty, 867 F.2d 759, 763
(2d Cir. 1989) (internal quotation marks omitted).
Once a conspiracy is shown to exist, the evidence
sufficient to link another defendant to it need not
be overwhelming. Id. at 762. The Second Circuit
has cautioned, however, that:
suspicious circumstances . . . are not enough
to sustain a conviction for conspiracy, and
mere association with those implicated in an
unlawful undertaking is not enough to prove
knowing involvement; likewise, a defendant’s
mere presence at the scene of a criminal act
or association with conspirators does not
constitute intentional participation in the
conspiracy, even if the defendant has
knowledge of the conspiracy.
United States v. Lorenzo, 534 F.3d 153, 159-60
(2d Cir. 2008) (internal citations quotation
marks and alteration omitted).
Viewing the evidence in the light most
favorable to the government, the Court concludes
there was sufficient evidence that defendant knew
of the existence of the scheme to make false
statements to mortgage lenders and that he
“knowingly joined and participated in it.”

95a
Nusraty, 867 F.2d at 763. A rational jury could
have found from the evidence at trial that
defendant
knew
the
HUD-1
settlement
statements that his law firm returned to mortgage
lenders misrepresented the sales price of the
property, falsely stated how mortgage proceeds
were disbursed and falsely stated that the buyers
brought down payments to closing. Hinds’s
testimony that she “confirmed” with defendant
that it was “okay to cut checks” from the mortgage
proceeds even though “the checks that we cut
didn’t necessarily match” the HUD* Is she
returned to the lender indicated that defendant
knew that the settlement statements his firm was
returning to the lenders he represented contained
false statements. Disonell’s testimony that on at
least one occasion, prior to closing, he gave
defendant a list of names and amounts and asked
him to issue checks, based on the list, from the
mortgage proceeds in his escrow account indicated
that defendant knew that the aim of the scheme
was for individuals other than the buyer or seller
to
obtain
mortgage
proceeds.
Defendant
acknowledged having this meeting with Disonell
to Agent Hensle and told Agent Hensle that
Disonell and Kupic gave him verbal and written
instructions to disburse the mortgage proceeds
“not to the seller but to third parties” and that he
never informed the lender of these disbursements.
Indeed, defendant testified that he was aware
that checks were being issued from his escrow
account “that did not match the HUD-1". Thus,
the jury had evidence from which it could find
that defendant knew that in order for the scheme

96a
to work, his office had to return to the lenders he
represented, HUD-1 settlement statements that
omitted the disbursements made to third parties.
See United States v. Desimone, 119 F.3d 217, 223
(2d Cir.1997) (A “conspiratorial agreement itself
may be established by proof of a tacit
understanding among the participants, rather
than by proof of an explicit agreement .”).
The evidence of defendant’s involvement in the
735 Burden Avenue and 4 Kaatskill Way closings
provided the jury with a basis for finding that
defendant participated in the conspiracy.
Defendant’s firm handled at least 44 transactions
for PB Enterprises, including the closing for 735
Burden Avenue. The evidence showed that
defendant signed two
HUD‘l
settlement
statements for this property. The first HUD-1
showed the true sales price. The second HUD-1
showed the inflated sales price, falsely stated that
the buyer made a cash down payment and falsely
stated how the mortgage proceeds were disbursed.
Sutliff testified that defendant attended the
closing on 4 Kaatskill Way, a property she was
buying. The documentary evidence showed that
defendant signed two HUD-Is for that closing.
The first showed the true sales price. The second,
which was returned to BNC mortgage, showed the
inflated sales price and falsely stated that Sutliff
made a cash down payment on the property.
Defendant’s attendance of the 4 Kaatskill Way
closing and signatures on the HUD-Is for that
closing, and the 735 Burden Avenue closing,
provided the jury with adequate evidence from

97a
which it could find that defendant knew that the
statements on the HUD-Is his office returned to
the lenders contained inflated sales prices, falsely
stated that the buyers made cash down payments
and falsely reported how the mortgage proceeds
were disbursed at closing. Defendant’s personal
involvement in these closings also provided the
jury with sufficient evidence that he knowingly
participated in the conspiracy.
It is uncontroverted that defendant’s paralegal
secretaries prepared the paperwork for and
conducted most of the closings for Team Title and
later PB Enterprises and that while defendant’s
firm conducted at least 64 closings, they
constituted a small percentage of defendant’s
business. The evidence also showed, however,
that: defendant was the sole attorney at the firm;
that he discussed disbursing mortgage proceeds to
individuals other than the buyer and seller with
Disonell; that he instructed Hinds that it was
permissible to disburse mortgage proceeds in a
manner contrary to the disbursements reported
on the HUD-1 they returned to the lender; that he
told Disonell that he would do “double HUD”
closings! and that he was involved in at least two
double HUD closings as evidenced by his
signature on the false HUD-1 settlement
statements for 4 Kaatskill Way and 735 Burden
Avenue. Thus, there was more than sufficient
evidence from which the jury could find beyond a
reasonable doubt that defendant knowingly
participated in a conspiracy to submit false
statements. See United States v. Henry, 325 F.3d

98a
93, 105 (2d Cir. 2003) (finding “[t]he mere fact
that Panek participated with Henry in the
suspicious transactions at issue suggests an
agreement.”); United States v. Rojas, 617 F.3d
669, 674 (2d Cir. 2010) (in the context of a
conspiracy conviction, deference to the jury's
findings is especially important ... because a
conspiracy by its very nature. is a secretive
operation, and it is a rare case where all aspects of
a conspiracy can be laid bare in court.”
(alternation in original and quotation marks
omitted)).
Defendant next argues that he is entitled to a
judgment of acquittal because he received only his
customary fee, $400-$500 per closing, and the
closings that involved Team Title and PB
Enterprises comprised a small percentage of his
business. In light of the evidence outlined above of
defendant’s knowledge of and participation in the
conspiracy, the government was not required to
prove that he had a financial stake in the
conspiracy. Henry, 325 F.3d at 105 ("[Ejvidence of
a financial stake in the venture is not essential to
show that the defendant intended to facilitate the
unlawful objective of the conspiracy." (quoting
United States v. Isabel, 945 F.2d 1193, 1203 (1st
Cir. 1991)).
Defendant argues that the government’s
“theory of the case requires one to assume” that
the checks the buyers brought to the closing as
evidence of their down payments were genuine
and that the checks were introduced at trial as
genuine. Defendant asserts that the checks were

99a
fake and that this undermines the government’s
proof regarding whether buyers brought down
payments. The evidence at trial showed that
defendant and his co-conspirators would falsely
state on the HUD-Is that the buyers made down
payments and make copies of the down payment
checks to submit to the lenders as proof but then
return the checks to the buyers, uncashed. Thus,
it is inconsequential whether the checks were
genuine or fake because it is undisputed that the
checks were not used in the transactions at issue.
Accordingly, defendant’s argument is without
merit.
Defendant argues that the government failed to
adduce evidence that any of the banks identified
in the overt acts were federally insured. The four
overt acts alleged in the indictment involved
Washington Mutual
Bank,
FA,
Fremont
Investment & Loan, and CitiMortgage, Inc. Even
assuming the government’s proof failed with
respect to Washington Mutual and CitiMortgage,
Inc., there was ample evidence from which the
jury could have found Fremont was federally
insured. One of the overt acts in the indictment
involved Fremont and alleged that:
On or about March 30, 2005, defendant . . .
submitted, and caused a coconspirator to
submit to Fremont, a HUD-1 statement in
connection with an $88,000 mortgage
relating to 147 Fifth Avenue, Troy, New
York, which HUD-1 misrepresented the
amount the buyer would provide at the
closing and misrepresented the manner in

100a

which the disbursements
proceeds would be made.

of the

loan

Irma Valdez, senior investigation research
specialist at Fremont, testified that Fremont’s
depository accounts were insured by the FDIC
during the relevant time period. The government
also introduced into evidence a certificate of proof
of insured status from Thomas E. Nixon, counsel
for the FDIC stating that Fremont Investment &
Loan, Brea, California and its “domestic
branches”, were federally insured and retained its
insured status “from September 24, 1984, through
and including December 31, 2005.” Thus, there
was evidence that Fremont was federally insured
at the time the overt act occurred.
Defendant argues that his office did not deal
with the Brea, California office, but a Fremont
“wholesale loan processing office” located in
Elmsford, New York, which did not operate within
the meaning of the phrase “domestic branch
office”. Although there is an address for a
Fremont office in Elmsford, New York in the
documents introduced at trial concerning the 147
Fifth Avenue transaction, those documents also
identify the Fremont office in Brea, California in
connection with this property. Additionally,
Valdez testified that Fremont was federally
insured, offered mortgages, funded a mortgage for
147 Fifth Avenue and used defendant as the
closing agent for the 147 Fifth Avenue closing.
Valdez further testified that had Fremont known
that the statements on the HUD-Is defendant’s
office returned to it after closing were false with

101a

respect to the funds the buyer brought to closing
and the disbursement of the mortgage proceeds, it
would have defunded the loan. Thus, viewing the
evidence in the light most favorable to the
government, the Court finds there was sufficient
evidence from which the jury could find that
defendant conspired to make a false statement to
influence the action of a federally insured
financial institution on a loan.
B. Bank Fraud -18 U.S.C. § 1344
The jury convicted defendant of Counts 7 and
19 for bank fraud in connection with his actions as
BNC Mortgage’s agent for the closings on 735
Burden Avenue and 4 Kaatskill Way. BNC
Mortgage is an uninsured, wholly owned,
subsidiary of Lehman Brothers, a federally
insured institution. Defendant argues that he is
entitled to a judgment of acquittal because the
government failed to establish that BNC
Mortgage was a federally insured financial
institution.
Section 1344 states that:
whoever knowingly executes, or attempts to
execute, a scheme or artifice- (l) to defraud
a financial institution, or (2) to obtain any of
the moneys, funds, credits, assets, securities,
or other property owned by, or under the
custody or control of, a financial institution,
by means of false or fraudulent pretenses,
representations, or promises; shall be fined
not more than $1,000,000 or imprisoned not
more than 30 years, or both.

102a
18 U.S.C. § 1344. The term “financial institution”
means, inter alia, “an insured depository
institution (as defined in section 3(c)(2) of the
Federal Deposit Insurance Act)” 18 U.S.C. § 20(l).
“The well stablished elements of the crime of bank
fraud are that the defendant (l) engaged in a
course of conduct designed to deceive a federally
chartered or insured financial institution into
releasing property! and (2) possessed an intent to
victimize the institution by exposing it to actual or
potential loss.” United States v. Barrett, 178 F.3d
643, 647-48 (2d Cir. 1999).
In this case, BNC’s closing instructions
required defendant to ensure that the buyers
made cash down payments and to report all
disbursements of the mortgage proceeds on the
HUD-1 settlement statements. The evidence
showed that defendant, however, not only closed
the loans on 735 Burden Avenue and 4 Kaatskill
Way without receiving down payments from the
buyers but that defendant falsely reported on the
settlement statements that the buyers had made
the down payments. In addition, defendant
disbursed $33,172.03 from the mortgage proceeds
for 735 Burden Avenue to the buyer, the majority
of which ended up in the pockets of O’Connell and
Crowley, without recording the disbursement on
the settlement statement. This evidence was more
than sufficient to allow the jury to find that
defendant engaged in a scheme to defraud.
Further, given defendant’s representations on
the settlement statements that the buyers made

103a

down payments, when they had not, and his
failure to disclose the actual, lower sales price of
the property, the jury was entitled to infer that
defendant placed BNC, and its parent company,
Lehman Brothers at risk for harm. The evidence
showed that defendant was hired by BNC to be its
agent and to disburse the mortgage funds in
accordance with its instructions and on its behalf.
Defendant instead allowed the loans to close and
disbursed the mortgage proceeds for properties in
which the buyers held no financial stake and that
were worth much less than the inflated sales price
he was reporting* and were therefore inadequate
as collateral.
Defendant asserts that the government failed to
prove that BNC Mortgage was federally insured.
The government’s theory at trial, however, was
that Lehman Brothers, which was federally
insured, was the victim of bank fraud because it
was Lehman Brothers’ money that BNC used to
fund the mortgages and that Lehman Brothers
suffered when there was a loss on the loan. The
proof required to establish the federally “insured
depository institution” element when the wholly
owned, but uninsured, subsidiary of an insured
financial institution is the victim of bank fraud, or
a false statement, has not been addressed directly
by the Second Circuit. In United States v. Bouyea,
152 F.3d 192 (2d Cir. 1998), the Second Circuit
addressed the issue in the context of the wire
fraud statute and whether a five-year or ten-year
statute of limitations applied. See id. at 195
(“Normally, conviction under the federal wire

104a

fraud statute does not require proof of an effect on
a financial institution
However, “if the
offense affects a financial institution,” then a tenyear statute of limitations applies.) (quoting 18
U.S.C. § 3293(2)).
In Bouyea, the defendant argued that the
evidence did not support the jury’s conclusion that
his wire fraud scheme, in violation of 18 U.S.C. §
1343, “affected a financial institution” because the
defrauded institution, the wholly owned
subsidiary of a financial institution, was not a
“financial institution” within the meaning of the
statute. Id. Citing the Third Circuit’s finding in
United States v. Pelullo, 964 F.2d,193, 215-16 (3d
Cir. 1992), that § 3293(2) “broadly applies to any
act of wire fraud that affects a financial
institution”, the Second Circuit rejected the
defendant’s argument that the defrauding of a
financial institution’s subsidiary “is insufficient as
a matter of law to meet the ‘affect [ing] a financial
institution’ requirement of § 3293(2)”. Id. The
Second Circuit found that the evidence that the
subsidiary “borrowed the money for its
transaction with Bouyea from its parent,
Centerbank, and that when [the subsidiary]
suffered a $150,000 loss as a result of Bouyea’s
fraudulent scheme, Centerbank was affected by
this loss” was “sufficient to allow [the jury] to
conclude that, by defrauding a wholly-owned
subsidiary of Centerbank, Bouyea did “affect[ ]”
Centerbank, a financial institution, for purposes
of § 3293(2). Id

105a

The statutes at issue in Bouyea, required proof
that the fraud “affected a financial institution”.
The bank fraud statute, in contrast, requires proof
of a scheme to defraud a financial institution or to
obtain funds “owned by, or under the custody or
control of, a financial institution”.21 18 U.S.C. §
1344. As the D.C. Circuit has explained, “[t]here is
little precedent” governing the issue of whether
evidence that an uninsured subsidiary of a
federally insured parent bank suffered a loss as
the result of bank fraud is sufficient to allow a
jury to find a scheme to defraud a federally
insured financial institution. United States v.
Hall, 613 F.3d 249, 252 (D.C.Cir. 2010), see also
United States v. Edelkind, 467 F.3d 791, 797-98
21 In United States v. Mavashev, No.08-CR-902, 2009 WL
4746301 (E.D.N.Y. Dec. 7, 2009), in which the defendant
was charged with conspiracy, bank fraud, and wire fraud, in
violation of 18 U.S.C. §§ 1344, 1343, 1349, and 3551, the
court applied Bouyea. In a pretrial motion, Mavashev
argued that the wholly owned subsidiaries (mortgage
lenders), which were not federally insured and from which
he obtained mortgages were, not “financial institutions”
within the meaning of 18 U.S.C. § 20. Id. The court denied
the defendant’s motion to dismiss the indictment, holding
that the government’s allegations that the “defendant has
defrauded several federally-insured banks via their whollyowned subsidiaries” were sufficient. Id. at *4. The court
instructed the government that: “Applying Bouyea, in order
to convict defendant for these actions, the government must
present evidence that the fraud ‘affected’ the parent
financial institutions.” Id.

106a

(1st Cir. 2006) (“[n]either the statute nor the case
law fully instructs just how tight a factual nexus
is required to allow a jury to decide that a scheme,
formally aimed at one (uninsured) company,
operates in substance to defraud another (insured)
entity with whom the defendant has not dealt
directly.”).22

22 A number of other Circuits have also addressed bank
fraud when it involves the uninsured subsidiary of a
federally insured parent bank. See, e.g., United States v.
Irvin, 682 F.3d 1254, 1272-73 (10th Cir. 2012) (holding that
because the government charged the defendant with
submitting a false loan application to the subsidiary “to
obtain proceeds from [the parent bank] ”, and the evidence
showed that the loan proceeds disbursed by the subsidiary
“upon its decision to fund [the] mortgage indisputably came
from the credit line extended to it by [the parent bank]” and
the subsidiary would not draw on its line of credit until its
underwriters decided to fund a particular loan, the jury had
a sufficient basis on which to conclude that “until such time,
the funds comprising the line of credit were owned by, and
in the custody and control of, [the parent bank].”); United
States v. Bennett, 621 F.3d 1131, 1139 (9th Cir. 2010)
(vacating three counts of bank fraud because the
“government introduced no evidence regarding the
relationship between BOA and [it’s subsidiary] Equicredit,
and the record contains nothing from which the jury could
discern the nature, amount, or even existence of any control
exercised by BOA.”); United States v. Bianucci, 416 F.3d 651
(7th Cir. 2005).

107a

In United States v. Hall, the defendant, who
was involved in a property “flipping” scheme,23
sent false appraisals and made false statements in
settlement documents to lenders that were the
uninsured, wholly owned, subsidiaries of the
federally insured parent banks. Hall, 613 F.3d at
251. Reviewing the sufficiency of the evidence, the
D.C. Circuit found that since GRL was wholly
owned by federally insured Guaranty Bank, a loss
to GRL would constitute a loss to Guaranty
23

This scheme was similar to the repair rebate and double
HUD schemes used in this case: [A] co-conspirator . . . would
buy homes in disrepair. Hall would then find straw buyers
to repurchase the homes .... Before the homes were resold
to the straw buyers, however, [another] co-conspirator . . .
would appraise the homes in disrepair as if they had been
renovated. These higher (false) appraisals were then sent to
GRL and another mortgage company, National City
Mortgage (“NCM”). These lending institutions would then
provide mortgage funding, facilitated by co-conspirators
[who were] underwriters at GRL and later NCM. The funds
were sent to coconspirator Vicki Robinson, the settlement
agent for the property sales . . . Robinson would give a
portion of the funds to Hall, who would then convert a
portion of those funds into cashier’s checks in the amount
that the straw buyer was supposed to bring to settlement as
a downpayment. At settlement Hall would receive the loan
proceeds, identified on the property settlement documents
as reimbursement for “rehab construction,” most of which
was never done. Instead, Hall took the money as income for
himself. Hall, 613 F.3d at 251.

108a
Bank,” Hall, 613 F.3d at 252. The court also found
that a loss to “NCM, described at trial only as an
operating subsidiary of federally insured National
City Bank of Indiana” would constitute a loss to
National City Bank if Indiana because “its status
as an operating subsidiary implies at least a
majority or controlling interest held by National
Bank of Indiana.” Id.
In Edelkind, the defendant was convicted of
bank fraud for refinancing a property repeatedly
by making false representations and submitting
false documents to uninsured subsidiary lenders,
in violation of §1344. 467 F.3d at 793. The
defendant argued that since the wholly owned
subsidiaries were not federally insured and the
evidence failed to show that the federally insured
parent bank was defrauded, he was entitled to a
judgment of acquittal. Id. at 797.
The First Circuit found that the bank fraud
statute applied, explaining that “where the
federally insured institution takes part in an
integrated transaction and is thereby injured by
the defendant, who intended to defraud another
party to the transaction.” Id. at 797-98. The First
Circuit held that although section 1344 “says that
the scheme to defraud a protected financial
institution must be ‘knowingly’ executed”, “the
government does not have to show that the
defendant knew which particular bank might be
injured or that it was federally insured.” Id. at
797. In Edelkind, the uninsured subsidiary “did
no more than ‘table fund’ the loan, that is, it
agreed to make the loan only if another lender

109a

[Lehman Brothers] first agreed to purchase the
loan thereafter.” Id. There, the evidence adduced
at trial showed that:
Lehman Brothers' forms and guidelines were
used by Fairmont and Aurora in table
funding the loan, that a Lehman Brothers
official (not just its subsidiary Aurora) signed
off on the loan before Fairmont made it, and
that Fairmont transferred the loan to
Lehman Brothers-not to Aurora-about a
month after the closing between Edelkind
and Fairmont. Thus the loan-although
formally made by Fairmont-was from the
outset part of an integrated transaction, the
first step of which was dependent on
approval by Lehman Brothers, and the pre­
planned second step of which was a transfer
of the mortgage to Lehman Brothers itself.
467 F.3d at 798. The First Circuit concluded that
“[g]iven these predicates-Edelkind's intent to
defraud, the integrated transaction, and the
financial injury to which Lehman Brothers was
exposed-the jury was entitled to find that
Edelkind defrauded Lehman Brothers, a federally
insured bank.” A/.24
24 The First Circuit also upheld a the bank fraud conviction
in United States v. Walsh, lb F.3d 1 (1st Cir. 1996). In
Walsh, the defendant obtained mortgages by submitting
false documents to Dime-MA, the uninsured wholly owned
subsidiary of Dime-NY, which was federally insured, and
was convicted of bank fraud, in violation of 18 U.S.C. § 1344.
Walsh, lb F.3d at 3. The defendant argued that “the

110a

Kelly Monahan, the Chief Executive Officer of
BNC Mortgage and a vice president of Lehman
Brothers Bank, testified at trial. Monahan
explained that Lehman Brothers owned BNC
Mortgage and that he “was a dual employee so I
was a vice president of the bank because we had
to sign documents as BNC Mortgage and then
other documents as Lehman Brothers Bank.”
Monahan stated in that 2000, he led “part of the
management team to buy out the publicly traded
company [BNC Mortgage] so we’d go private
again, and . . . then I partnered with Lehman
evidence failed to show that the victim was a federally
insured financial institution.” Id. at 9. The First Circuit held
that “a defendant can violate section 1344 by submitting the
dishonest loan application to an entity which is not itself a
federally insured institution.” Id. The evidence showed that
the wholly owned subsidiary’s directors and principal
officers “were officers of the parent” and it was “subject to
examination by the same federal bank examiners” as the
parent “and reported its result on a consolidated basis.” Id.
Additionally, the parent “provided all the funds for the
subsidiary’s operating expenses and to fund mortgage
closings.” Id. The parent “determined what loan products
should be offered and, on the closing of a loan by [the
subsidiary], the mortgage was immediately assigned to [the
parent] which serviced the loan.” Id. The First Circuit
concluded that on those facts, “for the purposes underlying
section 1344, the mortgage fraud perpetrated against DimeMA was effectively a fraud against Dime-NY.” Id.

111a

Brothers as my financial partner so we bought out
the public.” Monahan testified that he became
BNC Mortgage’s CEO and ran the company until
2006.
Monahan stated that BNC offered mortgages
during the time period relevant to this case.
Monahan explained that since BNC did not have
the capital to fund the “approximately a billion
dollars a month” it was originating in loans, it
obtained the funds through an “unlimited
warehouse line of credit” from Lehman Brothers.
Monahan stated that as a result, when BNC
funded loans, “we were using their funds.”
Monahan testified that once BNC funded the
loans, Lehman Brothers “purchased many of
them.” Monahan stated that if there was a loss on
a loan, “three different parties” could have the
loss. Monahan explained that BNC Mortgage
could have the loss “because if the borrowers don’t
make the payments we have to buy the loans
back.” Monahan further stated that it: “[c]ould
also be Lehman Brothers because of one or two
things. If they’re holding them on the books and
the loans are worthless, then they’ll take the loss,
but it could also be another - - if they securitize
the loans, it also could be the security holder.”
From Monahan’s testimony, viewed in the light
most favorable to the government, the jury could
find that: BNC Mortgage was a wholly owned
subsidiary of Lehman Brothers, a federally
insured financial institution; BNC’s CEO was also
an officer of Lehman Brothers; BNC funded the

112a
loans for 735 Burden Avenue (approximately
$76,500) and 4 Kaatskill Way (approximately
$226,000) with money it drew from its Lehman
Brothers’ credit line, and a loss on a loan issued
by BNC could also be a loss for Lehman Brothers.
Given this evidence
defendant’s intent to
defraud, the integrated transaction involving
funds from Lehman Brother’s and the financial
injury to which Lehman Brothers was exposed as
a result of its ownership of BNC and its provision
of money to fund the loan - the jury had a basis for
finding that defendant defrauded Lehman
Brothers, a federally insured financial institution,
in violation of § 1344. See Hall, 613 F.3d at 252
(finding the evidence Sufficient to prove bank
fraud in violation of § 1344 because “GRL- being
wholly owned by federally insured Guaranty
Bank, a loss to GRL would constitute a loss to
Guaranty Bank.”).
Defendant argues that even assuming the
evidence regarding the relationship between BNC
and Lehman Brothers was sufficient, his bank
records showed that the funds . for these
transactions came from “Deutcshe Bank, a
financial institution whose relationship to BNC or
Lehman was never proven.” The jury heard this
evidence, however, and was entitled to reject it.
Therefore, the Court concludes that the evidence
was sufficient to support defendant’s convictions
for defrauding federally insured financial
institutions.

113a

C. False Statement - 18 U.S.C. § 1014
1. Statement to a Federally Insured Financial
Institution
Defendant argues that the evidence at trial was
insufficient to support his conviction for making a
false statement on the 735 Burden Avenue HUD-1
settlement statement because BNC Mortgage was
not federally insured. “Section 1014 criminalizes
‘knowingly making any false statement or report
... for the purpose of influencing in any way the
action’ of a Federal Deposit Insurance Corporation
(FDIC) insured bank ‘upon any application,
advance, ... commitment, or loan.’” United States
v. Wells, 519 U.S. 482, 490 (1997) (quoting 18
U.S.C. § 1014). “The elements to be established
under 18 U.S.C. § 1014 are (l) that the lending
institution's deposits were federally insured; (2)
that the defendant made false statements to the
institution; (3) that the defendant knew the
statements made were false! and (4) that the
statements were made for the purpose of
influencing the institution to make a loan or
advance.” United States v. Chacko, 169 F.3d 140,
147 (2d Cir. 1999). United States v. White, 882
F.2d 250 (7th Cir. 1989).
It is undisputed that BNC Mortgage is not
federally insured. The government’s theory, both
in the indictment and at trial, however, was that
defendant made false statements to BNC
Mortgage for “for the purpose of influencing BNC
Mortgage and its parent corporation Lehman, an
institution whose deposits were insured by the

114a

Federal Deposit Insurance Corporations”. Cf.
United States v. White, 882 F.2d 250, 254 (7th
Cir. 1989) (vacating the defendant’s conviction for
making a false statement in violation of § 1014
where the government “staked its all on
persuading the district court and us” that the
uninsured leasing corporation, which was the
wholly owned subsidiary of an FDIC'insured
bank, was a bank, explaining “that if White had
intended by making false statements to the
leasing corporation to influence the bank as well,
the fact that the statements were not made to the
bank would not prevent his conviction; the
language of the statute is clear on this point” and
that “the intent to influence the bank” would not
“have to be the primary motivation for the making
of the statements”).
In United States v. Krown, the Second Circuit
held that § 1014 applied even though the false
statement was made to a third party and not
directly to a bank:
The statute is not limited by its terms to
direct dealings with banks. It covers the
making of false statements “for the purpose
of influencing in any way” the action of an
FDIC insured bank upon certain types of
transactions. Thus, the statute is broad
enough to apply to fraudulent dealings with
third persons where it could also be said that
there was the purpose to influence a bank
upon one of the transactions named in the
statute.
675 F.2d 46, 50 (2d Cir. 1982).

115a

In this case, there was evidence from which the
jury could find that defendant made false
statements in order to influence both BNC and
Lehman Brothers in connection with the loan on
735 Burden Avenue. Defendant could not access
or disburse the mortgage proceeds, which BNC
had obtained from Lehman Brothers and wired to
his escrow account, until he had ensured all
BNC’s closing requirements had been satisfied
and had completed and signed the HUD-1.
Defendant falsely stated on the 735 Burden
Avenue HUD-1 settlement statements that the
buyer made a down payment at closing and falsely
reported the disbursements he made from the
mortgage proceeds. Monahan testified that if BNC
had known that the buyer did not make the down
payment or that a “$33,000" disbursement had
been made to the buyer, which ultimately ended
up with O’Connell and Crowley, it would not have
funded the loan in the first place. Monahan
further stated that had BNC learned of these false
statements, it could have unwound or defunded
the loan, the proceeds of which came from
Lehman Brothers. The jury therefore had a basis
for finding that defendant made the false
statements with the intent to influence BNC’s and
Lehman Brothers’s actions with respect to the
loan on 735 Burden Avenue, including the actions
of funding the loan in the first place with Lehman
Brothers’ money and unwinding or defunding of
the loan. See United States v. Zahavi, No. 12
Crim. 288 (JPO), 2012 WL 5288743, at *5
(S.D.N.Y. Oct. 26, 2012) (“Indeed, a broad
interpretation of ‘action’ most harmoniously

116a

accords with the statutory purpose. Defendants
have not explained, and cannot explain, why it
would be unreasonable for a statute designed to
protect the credit system to cover statements
intended to influence bank ‘action’ on defaulted
loans, including such actions as foreclosure,
liquidation, sale, and release.” (internal citation
omitted) (citing United States v. Whitman, 665
F.2d 313, 319 (lOth.Cir. 1981) (“We note that the
purpose of §1014 was to cover all undertakings
which might subject the FDIC insured bank to
risk of loss and to protect lending institutions
from deceptive practices.” (internal citations and
quotation marks omitted))). Thus, the evidence
was sufficient for the jury to find that defendant
made the false statements to BNC Mortgage for
the purpose of influencing the actions of BNC and
Lehman Brothers with respect to the loan on 735
Burden Avenue.
2. Knowledge that Lender was Federally Insured
Defendant argues that there is no evidence that
he knew that the lender he was making
statements to was Lehman Brothers. “Section
1014's proscription of knowing misrepresentation
reach [es] a defendant's knowledge of the
statement's presentation to banks generally!,] as
distinguished from a particular bank.” See United
States v. Bellucci, 995 F.2d 157, 159 (9th
Cir.1993) (per curiam) (internal quotations
omitted) (quoting United States v. Lentz, 524 F.2d
69, 71 (5th Cir. 1975)).

117a

Defendant was an experienced real estate
attorney, who, as he testified, acted as the “bank’s
attorney” for numerous transactions over many
years. This is sufficient to create an inference
from which the jury could infer that defendant
knew his statements would influence a bank. See
United States v. Sabatino, 485 F.2d 540, 545 (2d
Cir. 1973) (“There was testimony, however, that
the salesman showed the form, which was headed
‘Bankers Trust Company
Buyer's Credit
Statement’ to appellant who affixed his signature.
We think that is enough to create an inference,
which the jury could accept, that appellant knew
he was making an application to the bank.”)
3. HUD-1 as Basis for False Statement Conviction
Defendant asserts that as a matter of law, a
statement on a HUD*1 cannot serve as the basis
for a false statement conviction under §1014
because the warning on the HUD-Is used in this
case refer to 18 U.S.C. §§ 1001 and 1010, which
also criminalize false statements. Defendant
argues that “if the Government actually intended
for a HUD-1 settlement statement to be
considered a ‘false statement’ under 18 U.S.C. §
1014, then the government would have added a
reference to 18 U.S.C. § 1014 into the ‘Warning’
language” on the HUD'l.”
Defendant’s argument has no merit. Section
1014, “by its terms covers ‘any false statement.’
Common sense indicates that ‘any statement’
means both written and oral statements.” United
States v. Sackett, 598 F.2d 739, 741 (2d Cir. 1979).

118a
Defendant admitted at trial that he “was aware of
checks being written that did not match the HUD1". BNC required defendant as its closing agent to
ensure that Haskins brought a cash down
payment to closing before he closed the loan and
disbursed the mortgage proceeds. The HUD-1
settlement statement defendant signed for the 735
Burden Ave closing falsely stated that the buyer,
Haskins, brought a $17,177.97. cash down
payment to closing and failed to report that
$33,172.03 in mortgage proceeds had been
disbursed to Haskins at closing. Defendant’s office
returned this HUD-1 settlement statement to
BNC. Defendant made a written false statement
on a form and returned it to BNC for the purpose
of influencing BNC and Lehman Brothers with
respect to the mortgage loan. Based on these facts,
the Court finds that this statement falls within
the term “any false statement” and that it is
immaterial whether the statement was on a HUD1 that contained warnings about other statutes or
an otherwise blank piece of paper.
B. Motion for a New Trial
Defendant further argues that the interest of
justice requires the Court to vacate the judgment
and grant a new trial. See Fed.R.Crim.P. 33(a).
The Court has “broader discretion to grant a new
trial pursuant to Rule 33 than to grant a motion
for a judgment of acquittal pursuant to
Fed.R.Crim.P. 29, where the truth of the
prosecution’s evidence must be assumedU” United
States v. Sanchez, 969 F.2d 1409, 1414 (2d Cir.
1992) (citations omitted). Such discretion should,

119a

however, be exercised sparingly. Id. The Sanchez
court states^
It is only where exceptional circumstances
can be demonstrated that the trial judge may
intrude upon the jury function of credibility
assessment. Where testimony is patently
incredible or defies physical realities, it may
be rejected by the court, despite the jury’s
evaluation. But the trial judge’s rejection of
all or part of the testimony of a witness or
witnesses does not automatically entitle a
defendant to a new trial. The test is whether
it would be a manifest injustice to let the
guilty verdict stand. Id. (citations, quotation
marks, and footnote omitted).
1. False Trial Testimony by Kevin O’Connell
Defendant moves for a new trial on the basis that
one of the government’s witnesses, Kevin
O’Connell, testified falsely at trial. Dkt. No. 57.
This assertion is based on a post trial interview
between O’Connell and two special agents from
the IRS. According to the Memorandum of
Interview dated February 28, 2013:
O’Connell said that he had 6 different
Assistant United States Attorneys that he
worked with starting with Tom Capezza and
ending up with Michael Olmsted over those 6
years. O’Connell then stated that he lied in
the Michael Bouchard trial and that he never
met Michael Bouchard.

120a

O’Connell said that he met with Assistant
United States Attorney, Michael Olmsted
and Special Agent Thomas Fattorusso and
told them several times he never met
Michael Bouchard. O’Connell stated that
Michael Olmsted told him “If you do not tell
us you met with Michael Bouchard we can’t
help you”. O’Connell told Michael Olmsted
that he wanted to speak with his attorney
privately. O’Connell then spoke with his
attorney, Lee Greenstein, and told him that
he (O’Connell) never met with Michael
Bouchard. O’Connell said that his attorney
told him that he (O’Connell) had to decide
what to do. O’Connell explained that he felt
Michael Olmsted threatened him and as a
result O’Connell lied while testifying that he
met Michael Bouchard when in fact he did
not.
O’Connell stated that it was like the movies,
he had to swear to tell the truth but then lied
that he had a meeting with Michael
Bouchard when he actually had never met
Michael Bouchard. O’Connell said that he
lied because he felt that Michael Olmsted
threatened him that if he did not lie he
would not get a reduced sentence. Also, that
in the past he had provided information on
others to Special Agent Fattorusso but that
he only seemed to be interested in the
Bouchard [sic].
Paragraph numbers omitted.

121a

After receiving a copy of this memorandum,
defendant supplemented his motion for a new
trial and requested a hearing on this issue. The
government responded as followsBy way of background, o[n] February 28,
2013, the government interviewed one of the
trial witnesses in connection with an
investigation unrelated to the Bouchard
matter.
The
witness
expressed
his
displeasure with the sentence imposed upon
him and said that he had testified falsely at
Bouchard’s trial by saying he had met with
Bouchard to discuss the fraud when he had
not done so. The interviewing agents wrote a
memorandum reciting what the witness said,
and on March 8, 2013, the government
provided
defense
counsel
with
the
memorandum. The government attempted to
interview the witness a second time, but was
advised by his attorney that he had not
testified falsely, that he had not told the
agents he had testified falsely, and that he
was unavailable for further interviews.
The memorandum provided to defense
counsel noted that the witness stated that he
lied when he testified that he met with
Michael Bouchard, because, in fact he did not
meet with Michael Bouchard. Dkt. No. 58,
pp.26-27.
The government went on to cite portions of the
witness's trial testimony and argued that his
testimony is not inconsistent with the statement

122a

he made to the government after being sentenced.
Still, the government agreed that a hearing would
be "appropriate." Id. at p.27.
In an Order entered on May 21, 2013, Dkt. No.
66, the Court granted the parties' request for a
hearing. Michael Olmsted, one of the Assistant
United States Attorneys who prosecuted this case,
testified. Defendant called no witnesses. Mr.
Olmsted testified that he met with O’Connell a
number of times prior to trial and that O’ConneH’s
attorney was present during all of these meetings.
Mr. Olmsted testified that he told O’Connell at
least four different times that: “If you are going to
talk to me at all, tell the truth. It is better for you
to be silent than to lie to me, because your
cooperation in this case depends upon telling the
truth, and that’s it.” Regarding the discussions
they had about whether O’Connell met with
defendant, Mr. Olmsted testified as follows:
Q Did you ever, again, this is from. . . did you
ever threaten Kevin O'Connell in a manner
that would result in him believing that he
needed to testify that he met Michael
Bouchard when in fact he did not?
A No, we were emphatic on this. There was a
■■ I'll give you a little bit of background. At
one point, we were asking him about his, you
know, did you meet with Michael Bouchard,
how is it that you had 63 closings with this
guy in which they were all worked out a
certain way, and after initially saying I don't
remember having a meeting, he said, look, I
can't remember when I had it or where I had

123a

it, but we had that meeting. And so we tried
to follow up on that saying, all right, when
was this, and he said, I know you want me to
be able to say when it was, and I remember
saying, all right, time out. I remember doing
this (indicating). Time out.
Q Let the record reflect that the witness is
forming a T with his hands much like an
NFL official does calling a timeout.
A And I said, we don't want you to say
anything other than what you remember. So
if you remember when it was, testify when it
was. If you remember where it was, testify
where it was. And if you can't remember
when or where it was, then say so.
On cross examination, Mr. Olmsted stated^
Q And is it a true statement that the reason
that you had conversations during your
meetings with Mr. O'Connell about whether
or not he had ever met with Michael
Bouchard personally is because there was
indication in some of the prior statements
made by Mr. O'Connell that he had not met
Michael Bouchard?
A I can answer that. Mr. O'Connell said in
grand jury testimony something to the effect
that he had not had conversations with Mr.
Bouchard. I thought that he was and still
think that he was remarkably imprecise in
trying to distinguish between whether he
met with Bouchard or whether he had
conversations involving criminality with

124a

Bouchard. And that I was confident that
when he said on some occasions I met with
Bouchard, he means he physically met with
him and said something to him, for example,
at a closing. There are other times when he
said, I met with Bouchard or didn't meet
with Bouchard where what he was trying to
say is I did not have a Conversation with him
about this conspiracy. And he was vague
through that and I thought frankly his grand
jury testimony was imprecise on that point,
which is why we asked him about it.
Q Mr. Olmsted, in the grand jury testimony
of Kevin O'Connell, and I'll direct your
attention to page 13,1 know you don't have it
in front of you but I'm going to read it to you,
tell me if you're familiar with the following
question and answer. "Question: Did you
have any conversations with Michael
Bouchard about the use of gift money or
double HUD closings or any other techniques
used to close properties? "Answer"• No."
You're familiar with that part of his
testimony?
A Yes.
Q And you said, Mr. Bouchard, that - excuse
me, Mr. Olmsted, you said that you
specifically recalled four conversations, what
was discussed and where they took place,
correct, as it relates A I remember talking to him about his
obligation to tell the truth. I remember
another meeting we had where we played
him a tape where he had previously talked

125a
about manipulating the HUDs because we
thought that might refresh his recollection
that he had had - on his interaction with
Bouchard. It did not refresh his recollection...
"A district court's discretion to determine if 'newly
discovered evidence warrants a new trial is broad
because its vantage point as to the determinative
factor—whether newly discovered evidence would
have influenced the jury—has been informed by
the trial over which it presided.'” United States v.
Williams, No. 12-765-cr, 2013 WL 1729754, at *1
(2d Cir. Apr. 13, 2013)(quoting United States v.
Stewart, 433 F.3d 273, 296 (2d Cir. 2006)). "It is
the defendant who bears the burden of showing
that a new trial is called for." United States v.
Sasso, 59 F.3d 341, 350 (2d Cir. 1995), "Where the
allegation is that there is new evidence of perjury,
'a threshold inquiry is whether the evidence
demonstrates that the witness in fact committed
perjury,"' Id. (quoting United States v. White, 972
F.2d 16, 20 (1992)). Perjury is defined as “giv[ing]
false testimony concerning a material matter with
the willful intent to provide false testimony.”
United States v. Dunigan, 507 U.S. 87, 94 (1993).
The Second Circuit has articulated the relevant
standard as followsWhether the introduction of perjured
testimony requires a new trial depends on
the materiality of the perjury to the jury's
verdict and the extent to which the
prosecution was aware of the perjury. With
respect to this latter inquiry, there are two
discrete standards of review that are

126a
utilized. Where the prosecution knew or
should have known of the perjury, the
conviction must be set aside “ ‘if there is any
reasonable likelihood that the false
testimony could have affected the judgment
of the jury.’ ” Perkins v. LeFevre, 691 F.2d
616, 619 (2d Cir. 1982) (quoting United
States v. Agurs, 427 U.S. 97, 103 (1976)); see
also Sanders v. Sullivan, 863 F.2d 218, 225
(2d Cir. 1988) (question is whether the jury's
verdict “might” be altered); Annunziato v.
Manson, 566 F.2d 410, 414 (2d Cir. 1977).
Indeed, if it is established that the
government
knowingly
permitted
the
introduction of false testimony reversal is
“virtually automatic.” United States v.
Stofsky, 527 F.2d 237, 243 (2d Cir. 1975)
(citing Napue-v. Illinois, 360 U.S. 264, 269
(1959)).
United States v. Wallach, 935 F.2d 445, 456 (2d
Cir. 1991).
Where, on the other hand:
the government neither knew nor should
have known of its witness's perjury at the
time of trial, [the defendant] must make the
following showing to win a new trial: (i)
that the perjured testimony was material;
and (2) but for the perjured testimony, the
defendant would most likely not have been
convicted.
United States v. Martinez, 26 Fed. Appx. 40, 42
(2d Cir. 2001).

127a

At trial, O’Connell testified25 that he and
Crowley were introduced to defendant by Sutliff,
25 At trial, on direct examination, O’Connell testified, in
relevant part:
Q Do you know Michael Bouchard?
A Yes.
Q How did you get to meet Michael Bouchard?
A He was a referral from somebody that I worked with in
the past, Nickole Riley, she introduced us.
Q And how did you find a closing agent?
A Through just like a series of people that were already in
the business that had experience with it through referrals.
Q And was one of those Michael Bouchard?
A Yes.
Q And how did you find him?
A He was introduced to us by Nickole Riley who was a
mortgage broker that had worked with him in the past.
Q And did you describe to him what you wanted to do?
A Yes.
Q And what did you ask him, what did he tell you?
A That we wanted to basically buy the property, have two
closings in one day where we were buying it from somebody
at a lower price and then reselling it at a higher
price.
Q And what did he say to you?
A That wouldn't be a problem.
Q And did you subsequently use him to do that?
A Yes.
Q Repeatedly?
A Yes.
Q How much business did you do -- I mean how many
closings did you do in a month would you say?

128a

A Probably five to six.
Q Over what period of time?
A Oh, like a four-year, three- or four-year period of time.
Q All right. So after you had met with Michael Bouchard,
discussed the need to have HUDs at a high and a low price,
you then had a series of closings?
A Yes.
Q How did the closing agent know to write that check as
opposed to other checks?
A I think it was just the difference between what we bought
the property for and what our sales contract was.
Q But is that what you had agreed would happen -A Yes.
Q -- with Michael Bouchard when you first started using
him?
A Yes.
Q On each, I mean, and you didn't have to renew that
agreement each closing?
A No.
On cross examination, O’Connell testified, in relevant part:
Q You just said that the check that you would get at the end
of the closing, that that's what you expected would happen,
is that right?
A Yes.
Q And you said that was based upon a conversation you had
with Michael Bouchard?
A Yes.
Q When did you have that conversation?
AI don't remember the exact date.
Q Well, where did you have that conversation?

129a

AI don't know exactly where.
Q Because I've read some of your prior testimony, you've
given prior testimony in connection with this case, correct?
A Yes.
Q More than once, correct?
A Yes.
Q You've indicated you never really had any real
conversation with Michael Bouchard previously, isn't that
right?
A That wasn't really my role in the company to deal with
him, I was Q I understand that, so the point of the matter, sir, is you
didn't have any conversations with him, isn’t that right?
A Well, we had the closing so I must of.
Q As a matter of fact, sir, you can't even say that you
yourself directly dealt with Michael Bouchard in connection
with any of the closings, that you testified to here today,
isn't that right?
A Not directly, no.
Q And you didn't talk to Michael Bouchard about the use of
double HUDs, correct?
A No.
Q That conversation never happened between you and he,
correct?
A Correct.
Q And by the way, when it came to utilizing Michael
Bouchard as a lawyer, you know who Thomas Disonell is,
correct?
A Yes.

130a

that they told defendant they wanted to buy low
and sell high and that defendant replied that
“that wouldn’t be a problem.” On cross'
examination, O’Connell could not recall where or
when he met defendant or when or where he
spoke with defendant , but stated that “we had the
closing so I must of’. After trial, O’Connell told
IRS agents that he lied at trial and that he never
met defendant.
For purposes of deciding this motion, the court
assumes without deciding that O’Connell testified
falsely at trial,26 when he stated that they (he and
Q You never spoke to Thomas Disonell about using Michael
Bouchard as a lawyer, correct?
A No.
Q And you know who Matthew Kupic is, correct?
A Yes.
Q And you never talked to Matthew Kupic about using
Michael Bouchard as a lawyer, correct?
A No.
26 O’Connell stated that he lied because Mr. Olmsted
threatened to withhold a motion for a reduced sentence if he
did not say he met defendant. According to O’Connell’s
attorney^
Like many de-briefings there were times that Mr.
Olmsted [sic] explored a topic and it was apparent that my
client’s recollection was not 100% consistent with Mr.
Olmsted’s expectations. However, Mr. Olmsted always
articulated that my client’s first obligation was to tell the
truth and he never wavered in that regard during any of our
meetings.

131a

Crowley) met defendant and discussed buying and
selling properties.
At the second step, the Court finds that the
government neither knew nor had reason to know
that O’Connell was lying when he testified at trial
that he had met defendant at some point. Mr.
Olmsted credibly testified that he told O’Connell
that “we don't want you to say anything other
than what you remember” and that his
I observed my client’s testimony at Bouchard’s trial. My
sense was that his direct testimony was very straight
forward and the cross-examination brief. My recollection is
that he was impeached once with his grand jury testimony
by Mr. Castillo, who otherwise limited his cross-examination
to having my client acknowledge the limits of Bouchard’s
knowledge of parts of the conspiracy in which his client did
not participate.
After the Bouchard trial I agreed to have case agents
meet with my client at the Albany County Jail because it
was unclear how long my client would be at that facility
before being moved to the Bureau of Prisons. I agreed to
that meeting without my presence. It was reported to me
that the agents left that meeting with the impression that
Mr. O’Connell claimed that he did not tell the truth at the
Bouchard trial. My sense is that my client’s issues were
more with the cooperation process and the results of his
case, rather than his own factual accuracy at trial. I am not
comfortable revealing the substance of my conversations
with my client, but I believe that the transcript of his
testimony speaks for itself in terms of whether my client
lied on the witness stand.
Dkt. No. 71.

132a

cooperation in this case depended on “telling the
truth, and that’s it.” O’Connell’s statements to the
government during debriefing sessions, in his
grand jury testimony, and at trial were consistent
in their vagueness and lack of detail about when
and Where he met defendant. Further, O’Connell,
never testified at trial that he, individually, met
with defendant to discuss the double HUD scheme
or what they needed defendant to do, as the
closing agent. Instead, O’Connell used “we” or “us”
when testifying about meeting defendant,
meaning he and Crowley. Mr. Olmsted attributed
O’Connell’s vagueness to a difficulty in
distinguishing meeting defendant at a closing,
which O’Connell stated “must” have happened
given the number of closings at defendant’s office,
with a meeting in which they discussed the
conspiracy with defendant, which O’Connell
stated did not happen. Thus, the Court finds that
the government neither knew nor had reason to
know of O’Connell’s perjury at the time of trial.
Defendant has presented no facts indicating
otherwise. The Court therefore applies the more
lenient standard of review.
To obtain a new trial, defendant must show
“that the perjured testimony was material; and
[that] but for the perjured testimony, the
defendant would most likely not have been
convicted.” Martinez, 26 Fed. Appx. at 42.
Although O’Connell’s testimony covered much
of the same ground as several other witnesses,
including Crowley, Hinds and Edgerton, and the
buyers PB Enterprises recruited, it was

133a
nonetheless relevant probative testimony in
support of the government’s case-in-chief and
defendant’s involvement in the conspiracy. The
Court therefore concludes the testimony was
material.
‘Where the government was unaware of a
witness' perjury” and the “testimony was
material” a new trial is warranted only if ‘“the
court [is left] with a firm belief that but for the
perjured testimony, the defendant would most
likely not have been convicted.’” Wallach, 935 F.2d
at 456 (quoting Sanders v. Sullivan, 863 F.2d 218,
226 (2d Cir. 1988) (alteration in Wallach)). “The
test ‘is whether there was a significant chance
that this added item, developed by skilled counsel
... could have induced a reasonable doubt in the
minds of enough of the jurors to avoid a
conviction.’” Wallach, 935 F.2d at 456 (quoting
United States v. Seijo, 514 F.2d 1357, 1364 (2d
Cir. 1975)).
Defendant asserts that there is no way to know
“what conclusion that jury made relative to
whether or not Kevin O’Connell had spoken with
Michael Bouchard and had discussed with him the
scam and that Michael Bouchard had agreed to
it.” At the evidentiary hearing, defense counsel
stated that if he had been able to present evidence
to the jury that O’Connell never met with
defendant he could not say “what the effect would
be, but I certainly can say that it would not have
been without effect” and “perhaps the verdict
would be different today.” At trial, defense counsel
effectively
cross-examined
O’Connell,
who

134a

conceded that he never had any discussions with
defendant about the conspiracy in this case. The
government made no attempt to rehabilitate
O’Connell on redirect and made no mention of
O’Connell’s relationship with defendant during
summations. Further, defense counsel argued in
summation that “Kevin O’Connell doesn’t really
say he discussed it with [defendant], all the other
bandits do.” Defense counsel also stated to the
jury:
Now I’m going to talk to you about Kevin
O’Connell, you know he’s Crowley’s partner,
PB Enterprises, now the conversation,
question that’s being asked of him is how he
came to know Michael Bouchard. Page 155 of
his testimony,
‘Question: And how did you find him?
'Answer: He was introduced to us by Nickole
Riley who was a mortgage broker that had
worked with him in the past.
'And you didn't talk to Michael Bouchard
about the use of double HUDs, correct?
'Correct.
'That conversation never happened between
you and he,' meaning Michael Bouchard,
'correct?
'Correct.
Having presided over this trial and having
heard the testimony of all the witnesses and
reviewed all the documentary evidence, the Court
concludes that O’Connell’s acknowledgment that
he lied and never met defendant, even if it was
“developed by skilled counsel” would not “have

135a

induced a reasonable doubt in the minds of
enough of the jurors to avoid a conviction.”
Wallach, 935 F.2d at 456 (internal quotation
marks omitted). Even if O’Connell had testified
that he and defendant never met, the Court finds,
in light of the other evidence presented at trial,
that there is little chance that this evidence would
“have induced a reasonable doubt in the minds of
enough of the jurors to avoid a conviction.’”
Wallach, 935 F.2d at 456. As the Court discussed
above, the evidence was more than sufficient for
the jury to find defendant guilty of conspiracy.
Accordingly, defendant’s motion for a new trial
based on O’Connell’s false testimony is denied.
2. Jurors
a. Excusal of Juror 102
Defendant asserts that he is entitled to a new
trial on the basis that the Court erred when it
excused Juror 102 for cause during jury selection.
In United States v. Perez, the Second Circuit
discussed the due process implications of the right
to an impartial jury:
The Sixth Amendment to the Constitution
guarantees a defendant the right to a speedy
and public trial by an impartial jury.
Because [o]ne touchstone of a fair trial is an
impartial trier of fact, the right to an
impartial jury also implicates due process
rights.
An impartial jury is one capable and
willing to decide the case solely on the
evidence before it, or one comprising people

136a

who will conscientiously apply the law and
find the facts. Impartiality is not a technical
conception. It is a state of mind. For the
ascertainment of this mental attitude of
appropriate indifference, the Constitution
lays down no particular tests and procedure
is not chained to any ancient and artificial
formula.
Impaneling a jury requires a trial judge to
assess carefully the demeanor and tone of
prospective jurors to determine if there is
any potential for prejudice. District courts, of
necessity, have both broad discretion and a
duty to ensure that the jury ultimately
impaneled is unbiased. The determination of
whether a juror can serve impartially will
not be disturbed absent a clear abuse of
discretion. In fact, we have stated that
[tjhere are few aspects of a jury trial where
we would be less inclined to disturb a trial
judge's exercise of discretion, absent clear
abuse, than in ruling on challenges for cause
in the empanelling of a jury.
United States v. Perez, 387 F.3d 201, 204*205 (2d
Cir. 2004) (internal quotation marks and citations
omitted).
During jury selection, after some, but not all,
trial jurors had been selected, Juror 102, who had
been selected as a juror, asked to speak to the
Court, privately.27 Juror 102 explained to the
27 The following is the transcript of the proceedings
involving Juror 102:

)

137a

THE CLERK: Court's in recess. You are 'jurors, you
understand you're going to be jurors on this case,', you
people. You're there.,
JUROR NO. 102: Could I talk to you for a second?
THE COURT: Me? With the lawyers, with me.
(Jury Panel Excused, At Side Bar with Juror No. 102, L10
p.m.)
JUROR NO. 102:-Because-I know you asked this-question of
me when you were up there but it was really just a general
to everybody where you asked it specifically of everybody,
could you really sit in judgment’of someone and I really, I
really have -- the more I’ve been thinking about it, I really
have a difficult time with that. I am a person who
empathizes with people to a great degree and I think I'd
have - I think I'd have a great deal'of. difficulty with that.
My .other problem is just work because I really didn’t think
about this .but I'm a . secretary for three department heads,
it's advisement time and a lot of the students who are
prospective students are coming right now and there won't
be anybody really for these weeks at a very crucial time for
them, and -•
THE COURT: It's kind ofJUROR NO. 102: -* the more I sit here thinking about that,
that's going to be a real hardship T think at work.
THE COURT: Well, so you're " there's a couple things
you're asking; . ■
JUROR NO.: 102: d've done - couple things, the more I've
been thinking about it, hearing it again and again. I think
the thing that's really bothering me is. the judgment thing.
It's not a religious thing, it's just that I'm just thinking I'm
going to have a real hard time sitting in • judgment of
someone.
'
.
«

V

140a

my top one, so .I know -- I know I'll have -- that will be
probably my -- probably the most important thing that I'll be
dealing with. Everybody else seems just so much more
comfortable in the decision-making process.
THE COURT: Counsel? Any objection? To excusing her?
MR. CASTILLO: Can we have a conversation' outside of her
presence for a moment, Judge.
THE COURT: Sure. Why don't you go back over.
JUROR NO. 102: Should I sit over here?
(Juror No. 102 left Side Bar.)
MR. CASTILLO: I mean I honestly don't want to consent.' I
don't think that she said anything that makes it — makes
her unfit to serve. I think she's supposed to have a hard
time, that's the way-, it's supposed to be. Nothing she says
makes me fear she can't do the job.
THE COURT: I know. I think she's having a hard time
wrestling with it; now having listened to more questioning, I
don't see where as ar matter; of law, I mean she's already
been accepted as a juror.
MR. OLMSTED: If you don't grant us the request we had,
could we do — could you amend your view on back-strikes
because if; she'd given these’ answers in the earlier
questioning, when we asked them, she certainly would have
been somebody we would have stricken, and so if you would
allow us to do a back-strike on her, I mean in the next
round. We have two remaining strikes,
THE COURT: What's yOur position on that?
MR. CASTILLO: Well, Tm not going to agree to that. Sorry.
MR. OLMSTED: Well, then I believe -- I think her answers
have consistently said she can't come to a verdict, that she
will have a hard time and that the government is - the
people of the United States are entitled to someone who will
make a decision.

141a

MS. THOMSON: I think it's also important to consider her
demeanor in this. I mean she was clearly distraught by it,
you could see it on her face, you could see it the way she
answered, her voice was shaking and this is something that
is a heavy burden for her, and you know, I share Mike's
view on the fact that if she comes forward and says that this
is something that, you know, she can't do and struggles
with, I think it's an appropriate strike for cause.
THE COURT: Well, you may have an exception. I'm not
going to strike her, I don't think that she's established that
she shouldn't serve. She's just worried about because she's
very empathetic and things like that.
MR. OLMSTED: How about our request that we be able to
use it as a back-strike given the fact that she has now come
forward with new information that we didn't have when we
made our strike?
THE COURT: HI think about it, but I don't know. I don't
know right now. I'll let you know.
MR. OLMSTED: Okay.
(Juror No. 102 returned to Side Bar.)
THE COURT: Ma'am, as is it stands right now, you're still
on the jury, okay.
JUROR NO. 102: Okay.
THE COURT: m see you back here at 2.
(Luncheon recess, Y-Yl p.m. to 2:09 p.m.)
(At Side Bar.)
THE COURT: Gaspar, I have rethought my position here
and you may have an exception. I think the things that she
said were so different from anything she said before, and it's
kind of a reflection upon having heard the next group of
witnesses -- or jurors, the way you're questioning people, it
gets very personal, and I can see why she might have gone

142a

Court and counsel for both parties that she was
unsure whether she would be able to “sit in
judgment of someone” as a person “who
empathizes with people to a great deal” and
wanted to alert the Court and the parties that she
did not feel she had the ability to judge the case
fairly. “Impaneling a jury requires a trial judge to
assess carefully the demeanor and tone of
prospective jurors to determine if there is any
potential for prejudice. District courts, of
necessity, have both broad discretion and a duty
to ensure that the jury ultimately impaneled is
unbiased.” Perez, 387 F.3d at 204-205. Mindful of
this duty, the Court carefully considered the
juror’s statements, her demeanor and the
potential unfairness of impaneling a juror who
doubted her ability to make a decision about
another person. The Court was also mindful of
defendant’s objection to removing her as a juror,
but having determined that Juror 102 could not
serve impartially concluded that she should be
removed for cause.,
Defendant asserts the Court’s decision to strike
Juror 102 for cause was in error because when
the way she did. I don't think it's fair to the government
that she has that mind set now. So I'm going to excuse her.
MR. CASTILLO: Yes, sir.
THE COURT: Okay.
MR. OLMSTED: Thank you.
(Open Court, Jury Panel Present.)
THE COURT: [Juror No. 102], I'm going to excuse you based
upon what you've told us. Okay. You may leave. Thank you.

143a
asked, she said that she could follow the Court’s
instructions and make a decision based on those
instructions. When defense counsel asked Juror
102 whether she could follow the Court’s
instructions, she did not respond affirmatively but
continued to state that she was concerned she
could not approach the case fairly-' “Well, the one
thing that bothered me was when you said some
of the people who would be testifying would be
people who have maybe been convicted of
something, so I’d have a real hard time taking
what they say at their word.” Thus, the Court did
not err when it, exercising its discretion to ensure
the impanelment of an unbiased jury, excused
Juror 102 for cause.
Further, defendant does not, and could not,
claim that the jury ultimately impaneled was
biased. Thus, even if the Court erred when it
excused Juror 102 for cause, because defendant
has failed to show prejudice, there is no basis on
which to grant a judgment of acquittal or new
trial. See Perez, 387 F.3d at 208 (“[sjince
appellant does not contest that the jury ultimately
impaneled was fair and impartial, his allegation
of error does not implicate his constitutional right
to a fair trial.”) (emphasis in original); United
States v. Towne, 870 F.2d 880, 885 (2d. Cir. 1989)
(“Since appellant has in no way established the
partiality of the jury that ultimately convicted
him, he may not successfully claim deprivation of
his sixth amendment or due process rights”).
Accordingly, defendant’s motion is denied.

i

144a

b. Replacement of Juror 8
Defendant argues that the Court erred when it
replaced a sitting juror with an alternate during
trial. On November 16, 2012, prior to beginning
the fourth day of trial, Juror 8's husband
contacted the Court to report that Juror 8 was
sick and could not report that day. The Court
advised counsel for both parties that Juror 8 was
ill and proposed replacing her with an alternate
juror. Defense counsel objected and suggested
giving Juror 8 a few hours to recover. The Court
responded that the courtroom deputy had already
contacted Juror 8's husband to ask whether this
was an option and had been told that Juror 8
would not be able to report at all that day. The
Court therefore, over defendant’s objection,
replaced Juror 8 with an alternate juror and
proceeded with trial.28
28 The following is the discussion between the Court and
counsel about whether to replace Juror 8 with an alternate
juror^
THE COURT: [Wle've got a juror that is not -- juror number
3, is it?
THE CLERK: No, 8.
THE COURT: Juror 8, who is [name redacted], her husband
called, right?
THE CLERK: Correct.
THE COURT: He called early this morning to say that she's
sick, too sick, she's got stomach problems and can't come
today. So we said maybe I could adjourn until maybe
noontime, said no, it's not going to work, so -MR. OLMSTED: Can we counsel each other?

145a

THE COURT: Sure.
MS. THOMSON: That's acceptable to the government.
THE COURT: Defense?
MR. CASTILLO: I'm sorry, Judge, I didn't know what the
question was.
THE COURT: The husband ofMR. CASTILLO: I heard that part, I just didn't hear what
your question was.
THE COURT: Do you have any objection to putting
alternate 1 in that seat?
MR. CASTILLO: I would at this time, yes, I would.
THE COURT: You would.
MR. CASTILLO: Yes, I would.
THE COURT: Okay. Do you have a suggestion of what we
would do then?
MR. CASTILLO: Well, I think your suggestion was the best
suggestion, was to give her a couple hours, but I don't know
if that’s feasible.
THE COURT: That -- my clerk spoke to them, called them
back an hour and a half later and said, how is she feeling,
possibly she could come in at noontime, and they said no.
THE CLERK: He seems to think she has the flu because he
was sick for the last few weeks and she did not get the flu
shot, that's what he said.
MS. THOMSON: Did I understand you to say, Judi, that the
husband believes that the wife has the flu?
THE CLERK: Correct.
THE COURT: She ran a campground up in Oswego County,
I believe.
MR. CASTILLO: I know.
THE COURT: Well, I don't know what choice I have, I've got
alternate jurors for this reason, to, in the event that another
juror can't serve. Her husband says she's got like flu

146a

“[Djistrict courts have broad discretion to
replace jurors at any time before the jury retires
for deliberations." United States v. Agramonte,
980 F.2d 847, 850 (2d Cir. 1992) (per curiam). To
remove a juror, a court need only have
“reasonable cause” to believe that the juror is
unable or disqualified to serve according to her
oath. United States v. Gambino, 951 F.2d 498, 503
(2d Cir. 1991). “All that is needed to satisfy a
prudent exercise of discretion is to be certain the
trial court had sufficient information to make an
informed decision.” United States v. Reese, 33
F.3d 166, 173 (2d Cir. 1994). Defendant asserts
that the Court’s decision to replace the sitting
juror with an alternate juror was premature. The
Court, however, had assessed the situation and
learned that the juror would be unable to report
for jury duty at any point that day. While the
Court could have adjourned the trial until the
juror recovered, it exercised its discretion and
decided to replace the sick juror with an alternate
and proceed with trial that day rather sending the
jurors and alternate jurors home after they had
reported to the courthouse and were prepared to
serve. Accordingly, defendant’s motion for a
judgment of acquittal based on the Court’s
decision to replace a sitting juror with an
alternate juror during trial is denied.

symptoms and she's got diarrhea and she's throwing up,
right? Judi?

147a

IV. CONCLUSION
For the foregoing reasons, it is hereby
ORDERED that defendant’s motion for a
judgment of acquittal and motion for a new trial
(Dkt. Nos. 35 and 36) are DENIED.
IT IS SO ORDERED.
Date: February 10, 2014
/S/
Norman A. Mordue
Senior U.S. District Judge

148a

APPENDIX H

STATUTORY PROVISIONS
(Pre-2009 Congressional Amendments)
18 U.S.C. §2. Principals.
(a) Whoever commits an offense against the
United States or aids, abets, counsels, commands,
induces or procures its commission, is punishable
as a principal.
(b) Whoever willfully causes an act to be done
which if directly performed by him or another
would be an offense against the United States, is
punishable as a principal.

149a

8 U.S.C. §20. Financial institution defined
As used in this title,
institution” means—

the

term

“financial

(1) an insured depository institution (as defined
in section 3(c)(2) of the Federal Deposit Insurance
Act);
(2) a credit union with accounts insured by the
National Credit Union Share Insurance Fund;
(3) a Federal home loan bank or a member, as
defined in section 2 of the Federal Home Loan
Bank Act (12 U.S.C. 1422), of the Federal home
loan bank system;
(4) a System institution of the Farm Credit
System, as defined in section 5.35(3) of the Farm
Credit Act of 1971;
(5) a small business investment company, as
defined in section 103 of the Small Business
Investment Act of 1958 (15 U.S.C. 662);
(6) a depository institution holding company (as
defined in section 3(w)(l) of the Federal Deposit
Insurance Act;
(7) a Federal Reserve bank or a member bank of
the Federal Reserve System;
(8) an organization operating under section 25 or
section 25(a) 1 of the Federal Reserve Act; or
(9) a branch or agency of a foreign bank (as such
terms are defined in paragraphs (l) and (3) of
section l(b) of the International Banking Act of
1978).

150a

18 U.S.C. §1014. Loan and credit applications
generally? renewals and discounts; crop
insurance

,

Whoever knowingly makes any false statement
or report, or willfully overvalues any land,
property or security, for the purpose of
influencing in any way the action of the Farm
Credit Administration, Federal Crop Insurance
Corporation or a company the Corporation
reinsures, the Secretary of Agriculture acting
through the Farmers Home Administration or
successor agency, the Rural Development
Administration or successor agency, any Farm
Credit Bank, production credit association,
agricultural credit association, bank for
cooperatives, or any division, officer, or
employee thereof, or of any regional
agricultural credit corporation established
pursuant to law, or a Federal land bank, a
Federal land hank association, a Federal
Reserve bank, a small business investment
company, as defined in section 103 of the Small
Business Investment Act of 1958 (15 U.S.C.
662), or the Small Business Administration in
connection with any provision of that Act, a
Federal credit union, an insured Statechartered credit union, any institution the
accounts of which are insured by the Federal
Deposit Insurance Corporation, the Office of
Thrift Supervision, any Federal home loan
bank, the Federal Housing Finance Board, the
Federal Deposit Insurance Corporation, the

I

151a

Resolution Trust Corporation, the Farm Credit
System Insurance Corporation, or the National
Credit Union Administration Board, a branch
or agency of a foreign bank (as such terms are
defined in paragraphs ,(l) and (3) of section l(b)
of the International Banking Act of 1978), or an
organization operating under section 25 or
section 25(a) of the Federal Reserve Act, upon
any application, advance, discount, purchase,
purchase agreement, repurchase agreement,
commitment, or loan, or any change or
extension of any of the same, by renewal,
deferment of action or otherwise, or the
acceptance, release, or substitution of security
therefor, shall be fined not more than
$1,000,000 or imprisoned not more than 30
years, or both. The term “State-chartered credit
union” includes a credit union chartered under
the laws of a State of the United States, the
District of Columbia, or any commonwealth,
territory, or possession of the United States.

l

6*.-------

I

)

154a

U.S. Const, amend V
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a
presentment or indictment of a Grand Jury,
except in cases arising in the land or naval forces,
or in the Militia, when in actual service in time of
War or public danger; nor shall any person be
subject for the same offence to be twice put in
jeopardy of life or limb; nor shall be compelled in
any criminal case to be a witness against himself,
nor be deprived of life, liberty, or property,
without due process of law; nor shall private
property be taken for public use, without just
compensation.

i

155a

U.S. Const, amend VI
In all criminal prosecutions, the accused shall
enjoy the right to a speedy and public trial, by an
impartial jury of the State and district wherein
the crime shall have been committed, which
district shall have been previously ascertained by
law, and to be informed of the nature and cause of
the accusation! to be confronted with the
witnesses against him! to have compulsory
process for obtaining witnesses in his favor, and to
have the Assistance of Counsel for his defence.

156a

APPENDIX J

RELEVANT EXCERPTS FROM PRINT-OUT OF
PRE-INDICTMENT RESEARCH CONDUCTED
BY MICHAEL G. BOUCHARD REGARDING
LENDER, FREMONT INVESTMENT & LOAN
(Internet Source: FDIC Web-Site)
FDIC: Fremont Investment & Loan

Page 1 of 1

Key demographic information as of June 7, 2012
Fremont Investment & Loan
2727 East Imperial Highway
Brea, CA 92821
FDIC Certificate #'• 25653
Date Established: 3/1/1937
Date of Deposit Insurance: 9/24/1984
Bank Charter Class: Federal Reserve Non­
member
Primary Federal Regulator:
Insurance Corporation

Federal Deposit

http://www2.fdic.gOv/idasp/confirmation_outside.a
sp?inCertl=25653
6/12/2012

